                                                        Table of Contents

Management’s Discussion and Analysis ......................................................................................1
   Reporting Entity.......................................................................................................................... 1
   The Fund ..................................................................................................................................... 2
      General Benefit Information ................................................................................................... 2
      Non-Disability Retirement from Active Service .................................................................... 5
      Disability Retirement .............................................................................................................. 6
      Reserve Retirement................................................................................................................. 7
      Survivor Benefits .................................................................................................................... 8
      Temporary Early Retirement Authority (TERA).................................................................. 10
      Cost-of-Living Increase ........................................................................................................ 10
   Fund Relationships.................................................................................................................... 11
      Department of Veterans Affairs Benefits ............................................................................. 11
      Other Federal Service ........................................................................................................... 12
      Retired Pay to Military Compensation ................................................................................. 12
      Social Security Benefits........................................................................................................ 12
   Significant Changes .................................................................................................................. 13
      During FY 2011 and FY 2010 .............................................................................................. 13
      Changes for FY 2012 ............................................................................................................ 14
   Performance Measures.............................................................................................................. 14
   Projected Long-Term Health of the Fund ................................................................................. 14
      U.S. Credit Rating Downgrade ............................................................................................. 15
      Unified Budget of the Federal Government.......................................................................... 15
      20-Year Projection ................................................................................................................ 16
      Expected Problems................................................................................................................ 18
      Investments ........................................................................................................................... 18
     Management Oversight......................................................................................................... 18
     Anticipated Changes between the Expected and Actual Investment Rate of Return ........... 19
   Financial Performance Overview ............................................................................................. 20
     Financial Data ....................................................................................................................... 20
     Assets .................................................................................................................................... 20
     Liabilities .............................................................................................................................. 21
   Management Assurances .......................................................................................................... 22
   Improper Payments Information Act of 2002 (Public Law No. 107-300)................................ 23
   Limitations of the Financial Statements ................................................................................... 24


          i   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
DoD Transmittal of Auditors’ Opinion .....................................................................................25
Independent Auditors’ Report....................................................................................................26
   Introduction............................................................................................................................... 26
   Independent Auditors’ Report on the Financial Statements ..................................................... 27
   Independent Auditors’ Report on Internal Control over Financial Reporting and on
   Compliance and Other Matters Based Upon the Audit Performed in Accordance with
   Government Auditing Standards............................................................................................... 28
  Agency Comments.................................................................................................................... 31
Principal Statements....................................................................................................................32
   Consolidated Balance Sheet...................................................................................................... 33
   Consolidated Statements of Net Cost ....................................................................................... 34
   Consolidated Statements of Changes in Net Position............................................................... 35
   Statements of Budgetary Resources.......................................................................................... 36
DoD Military Retirement Fund Notes to the Principal Statements ........................................37
  NOTE 1. Significant Accounting Policies ............................................................................... 37
   NOTE 2. Non-Entity Assets .................................................................................................... 40
   NOTE 3. Fund Balance With Treasury (FBWT)..................................................................... 40
   NOTE 4. Investments............................................................................................................... 42
   NOTE 5. Accounts Receivable ................................................................................................ 44
   NOTE 6. Liabilities Not Covered By Budgetary Resources ................................................... 44
   NOTE 7. Other Liabilities........................................................................................................ 45
   NOTE 8. Commitments and Contingencies............................................................................. 45
   NOTE 9. Military Retirement Benefit Liabilities .................................................................... 46
   NOTE 10. Disclosures Related to the Statements of Net Cost ................................................ 49
   NOTE 11. Benefit Program Expense....................................................................................... 50
   NOTE 12. Disclosures Related to the Statements of Changes in Net Position ....................... 51
   NOTE 13.         Disclosures Related to the Statements of Budgetary Resources ............................ 51
   NOTE 14.         Reconciliation of Net Cost of Operations to Budget.............................................. 52
   NOTE 15.         Earmarked Funds.................................................................................................... 53
   NOTE 16.         Other Disclosures ................................................................................................... 54
   NOTE 17.         Subsequent Event ................................................................................................... 54




         ii   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

                            Management’s Discussion and Analysis
                        Summary of the Military Retirement System
                         For the Years Ended September 30, 2011 and 2010

Reporting Entity

The reporting entity is the Department of Defense (DoD) Military Retirement Fund (MRF). The
Military Retirement System (MRS) provides benefits for military members’ retirement from
active duty and from the reserves, disability retirement benefits, and optional survivor coverage.
The mission of the MRF is to accumulate adequate funds to finance, on an actuarially sound
basis, the liabilities of DoD under military retirement and survivor benefit programs. Statutorily,
military retirees are entitled to either “retired pay” or “retainer pay” as opposed to a “pension.”
For purposes of these statements, however, the terms can be used interchangeably.

Within DoD, the Office of the Under Secretary of Defense (Comptroller) (OUSD(C)), the Office
of the Under Secretary of Defense for Personnel and Readiness (OUSD(P&R)), and the Defense
Finance and Accounting Service (DFAS) jointly oversee the operations of the MRS. DFAS is
responsible for the accounting, investing, payment of benefits, and reporting of the MRF. The
DoD Office of the Actuary (OACT) within OUSD(P&R) calculates the actuarial liability of the
MRF. The Office of Military Personnel Policy within OUSD(P&R) issues policy related to
retirement benefits. While the MRF does not have a specified Chief Financial Officer (CFO),
the OUSD (C) has oversight of the MRF's financial reporting processes.

The Fund was established by Public Law (P.L.) 98-94 (currently Chapter 74 of Title 10, U.S.C.).
This law also established an independent, three-member DoD Retirement Board of Actuaries,
appointed by the President. P.L. 110-181 eliminated the DoD Retirement Board of Actuaries and
created the DoD Board of Actuaries. The members of the DoD Board of Actuaries are appointed
by the Secretary of Defense. The DoD Board of Actuaries is required to review valuations of the
MRS, determine the method of amortizing unfunded liabilities, report annually to the Secretary
of Defense, and report to the President and the Congress on the status of the MRF at least every
four years. OACT provides all technical and administrative support to the DoD Board of
Actuaries.

In Fiscal Year (FY) 2011, the MRF paid out approximately $54.86 billion in benefits to military
retirees and survivors. In FY 2010, the MRF paid out approximately $50.58 billion in such
benefits. In addition to OUSD(C) and OUSD(P&R) staff, hundreds of individuals at the DFAS
Pay Centers are involved in making the benefit payments. The administrative costs of
supporting MRF’s activities are not reflected in these financial statements.

The Fund receives income from three sources: monthly normal cost payments from the Services
that pay for the current year’s service cost; annual payments from the U.S. Treasury to amortize
the unfunded liability and pay for the normal cost due to Concurrent Receipt (P.L. 108-136); and
investment income.




       1   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

During FY 2011, the MRF received approximately $20.97 billion in normal cost payments, a
$66.35 billion payment from the U.S. Treasury, and earned approximately $18 billion in
investment income, net of premium/discount amortization and accrued inflation compensation.
In comparison, in FY 2010 the MRF received approximately $20.41 billion in normal cost
payments, a $63.14 billion payment from the U.S. Treasury, and earned approximately
$10.42 billion in investment income, net of premium/discount amortization and accrued inflation
compensation (see the Financial Performance Overview section for an explanation of the
changes).

The Fund
General Benefit Information

The MRS applies to members of the Army, Navy, Marine Corps, and Air Force; however, most
of the provisions also apply to retirement systems for members of the Coast Guard (system
administered by the Department of Homeland Security), officers of the Public Health Service
(system administered by the Department of Health and Human Services), and officers of the
National Oceanic and Atmospheric Administration (system administered by the Department of
Commerce). This report applies only to members in plans administered by the Department.

The MRS is a funded, noncontributory, defined-benefit plan that includes non-disability retired
pay, disability retired pay, retired pay for reserve service, survivor annuity programs, and special
compensation programs for certain disabled retirees. The Service Secretaries may approve
immediate non-disability retired pay at any age with credit of at least 20 years of active duty
service. Reserve retirees generally must be at least 60 years old and have at least 20 qualifying
years of service before retired pay commences; in some cases, the age can be less than 60 if the
reservist performs certain types of active service. P.L. 110-181 allows a 90-day reduction in the
reserve retirement age from age 60 for every 3 months of certain Active Duty service served
within a fiscal year for service after January 28, 2008 (not to exceed 10 years). There is no
vesting of benefits before retirement.

There are three distinct non-disability benefit formulas related to three populations within the
MRS.

   1) Final Pay: Military personnel who first became members of a uniformed service before
      September 8, 1980, have retired pay equal to final basic pay times a multiplier (final
      basic pay refers to terminal pay of the member). The multiplier is equal to 2.5 percent
      times years of service.
   2) High-3: If the retiree first became a member of a uniformed service on or after
       September 8, 1980, the average of the highest 36 months of basic pay is used instead of
      final basic pay.
   3) Career Status Bonus (CSB)/Redux: Those who first became a member of a uniformed
      service on or after August 1, 1986, may choose between a High-3 and CSB/Redux
      retirement. Those who elect CSB/Redux receive the CSB outlined below and also have
      retired pay computed on a base of the average of their highest 36 months of basic pay;
      however, those who choose to receive the CSB/Redux are subject to a penalty if they


       2   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

       retire with less than 30 years of service. At age 62, their retired pay is recomputed
       without the penalty. Members make this election during their 15th year of service and
       may receive the CSB of $30,000 in either a lump-sum or installments. Those who elect
       CSB/Redux must remain continuously on active duty until they complete 20 years of
       active duty service or forfeit a portion of the $30,000 (exceptions include death and
       disability retirement).

Annually, retired pay and survivor annuity benefits are automatically adjusted to protect the
purchasing power of initial retired pay. Members first entering the armed services before August
1, 1986, and those entering on or after that date who do not take the CSB, have their benefits
adjusted by the percentage increase in the average Consumer Price Index (CPI). This is
commonly referred to as “full CPI” protection. Benefits for members who entered on or after
August 1, 1986, who elect the $30,000 CSB bonus payment, are increased by the percentage
change in the CPI less 1 percent (except when the change in the CPI is less than or equal to 1
percent). At the military member’s age 62, or when the member would have been age 62 (for a
survivor annuity), the benefits are restored to the amount that would have been payable had full
CPI protection been in effect. This restoral is in combination with that described in the previous
paragraph; however, after this restoral, partial indexing (CPI minus 1 percent) continues for
future retired pay and survivor annuity payments.

The FY 2011 National Defense Authorization Act (NDAA) (P.L. 111-383) statutorily required
amounts of retired and retainer pay due to a retired member of the uniformed services shall be
paid on the first day of each month beginning after the month in which the right to such pay
accrues. This means that when the first day of the month falls on a non-business day
(weekend / holiday), the pay must be paid the preceding business day. Since October 1, 2011
fell on a Saturday, the MRF distributed the October retired and retainer pay entitlements on
September 30, 2011. This legislation did not address, or affect, survivor annuitant pay and
certain combat-related compensation. In certain fiscal years, this results in retirees receiving 13
payments in some and 11 payments in others; however, the usual 12 monthly payments will be
the most frequent occurrence. For comparative purposes, annual fiscal year amounts shown
throughout the MD&A represent 12 monthly payments without regard to the 2011 NDAA and
are identified as such.

See Tables 1 and 2.




       3   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________


                    MILITARY RETIREMENT SYSTEM PROPERTIES
                (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

  Benefit                                                                          Career Status Bonus
  System                       Final Pay                   High-3 (HI-3)           (CSB)/Redux
                                                       First became member
                                                       of a uniformed service
                                                       on or after September       First became member of
                        First became member             8, 1980 and prior to       a uniformed service on or
                            of a uniformed               July 31, 1986, and        after August 1, 1986 and
 Applies to:
                            service before             members joining after       elect to accept the CSB
                         September 8, 1980               July 31, 1986 who         with additional 5-year
                                                       elect not to accept the     service obligation
                                                         CSB at the 15-year
                                                             anniversary
 Retired Pay
                                                        Highest 36 months of       Highest 36 months of
 Computatio              Final basic pay rate
                                                           basic pay rate          basic pay rate
  n Basis:
                                                                                   2.5% per year of service
                           2.5% per year of                2.5% per year of        less 1% for each year of
 Multiplier:
                               service                         service             service less than 30
                                                                                   (restored at age 62)
 Cost-of-
                        Full Clerical Worker                                       Full CPI-W minus 1%
  Living
                          Consumer Price                      Full CPI-W           (one-time catchup at age
Adjustment
                          Index (CPI-W)                                            62)
Mechanism:
                                                                                   $30,000 CSB payable at
                                                                                   15-year anniversary upon
 Additional
                                     --                             --             assumption of 5-year
  Benefit:
                                                                                   obligation to remain on
                                                                                   continuous active duty

                              Table 1. Military Retirement System Properties




      4   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

                       MILITARY RETIREMENT SYSTEM MULTIPLIERS
                    (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

                   Years of       Final Pay/HI-3                 CSB/Redux Multiplier
                   Service          Multiplier            Before Age 62     After Age 62
                       20               50%                     40%                 50%
                       21                52.5                    43.5                52.5
                       22                55.0                    47.0                55.0
                       23                57.5                    50.5                57.5
                       24                60.0                    54.0                60.0
                       25                62.5                    57.5                62.5
                       26                65.0                    61.0                65.0
                       27                67.5                    64.5                67.5
                       28                70.0                    68.0                70.0
                       29                72.5                    71.5                72.5
                       30                75.0                    75.0                75.0
                       31                77.5                    77.5                77.5
                       32                80.0                    80.0                80.0
                       33                82.5                    82.5                82.5
                       34                85.0                    85.0                85.0
                       35                87.5                    87.5                87.5
                       36                90.0                    90.0                90.0
                       37                92.5                    92.5                92.5
                       38                95.0                    95.0                95.0
                       39                97.5                    97.5                97.5
                       40               100.0                   100.0               100.0
                       41               102.5                   102.5               102.5
                       42               105.0                   105.0               105.0

                              Table 2. Military Retirement System Multipliers

Non-Disability Retirement from Active Service

The current retirement system allows for voluntary retirement at any age upon completion of at
least 20 years of service, subject to Service Secretary’s approval. The military retiree
immediately receives retired pay calculated as base pay multiplied by the specified factor. “Base
pay” is equal to terminal basic pay if the retiree first became a member of a uniformed service
before September 8, 1980; for all other members, “base pay” is equal to the average of the
highest 36 months of basic pay. The factor is equal to 2.5 percent multiplied by the number of
years of service, rounded down to the nearest month.




       5   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Members who first entered a Uniformed Service on or after August 1, 1986, who elect
CSB/Redux and who retire with less than 30 years of service, receive a temporary penalty until
they reach the age of 62. This penalty reduces the factor used to compute retired pay by one
percentage point for each full year of service under 30 years. For example, the multiplier for a
20-year retiree would be 40 percent (50% minus 10%, where 50% equals 20 years multiplied by
2.5%) of base pay. At age 62, the retired pay is recomputed with the penalty removed.

As of September 30, 2011, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2011, non-disability retirees were paid approximately
$40.62 billion. (As a result of NDAA 2011, approximately $43.86 billion was paid in FY 2011.)

As of September 30, 2010, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2010, non-disability retirees were paid approximately
$40.26 billion.

Disability Retirement

A military member in an active component or on Active Duty for more than 30 days who is
found unfit for duty is entitled to disability retired pay if the disability:

   1)   is incurred while entitled to basic pay;
   2)   is neither the result of the member's intentional misconduct nor willful neglect;
   3)   was not incurred during a period of unauthorized absence; and
   4)   either:
             a. the member has at least 20 years of service; or
             b. the disability is rated at least 30 percent under the Department of Veterans Affairs
                Schedule of Rating Disabilities (VASRD) and one of the following conditions is
                met:
                      i. the disability was not noted at the time of the member’s entrance on
                         Active Duty (unless clear and unmistakable evidence demonstrates that
                         the disability existed before the member’s entrance on Active Duty and
                         was not aggravated by active military service);
                     ii. the disability is the proximate result of performing Active Duty;
                    iii. the disability was incurred in the line of duty in time of war or national
                         emergency; or
                    iv. the disability was incurred in the line of duty after September 14, 1978.

Under certain conditions, members on Active Duty for 30 days or less or on inactive-duty
training also are entitled to disability retired pay for disabilities incurred or aggravated in the line
of duty.

In disability retirement, the member may elect to receive retired pay equal to either:

   1) the accrued non-disability retirement benefit regardless of eligibility to retire; or
   2) base pay multiplied by the rated percent of disability.



        6   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Except for members with more than 30 years of service, the benefit cannot exceed 75 percent of
base pay. The excess of the accrued non-disability retirement benefit (1, above) over the
disability pay (2, above) is subject to federal income taxes if the member had service on or
before September 24, 1975. If not a member of a uniformed service on September 24, 1975,
disability retired pay is tax-exempt only for those disabilities that are combat or hazardous duty
related. Base pay is equal to final basic pay if the retiree first became a member of a uniformed
service before September 8, 1980; otherwise, base pay is equal to the average of the highest 36
months of basic pay.

Members whose disabilities may not be permanent are placed on a temporary-disability retired
list and receive disability retirement pay just as if they were permanently disabled; however, the
member must be physically examined every 18 months for any change in disability, with a final
determination made within 5 years. The temporary disability pay is calculated like the
permanent disability retired pay, except that it cannot be less than 50 percent of base pay.

Members who elected the CSB/Redux retirement option, but who retired for disability, are not
subject to the reduced CSB/Redux retired pay multiplier and are awarded retired pay based on
the disability retired rules outlined above. However, such members continue to be subject to the
reduced CPI as CSB recipients.

As of September 30, 2011, there were approximately 95,000 disability retirees receiving retired
pay. In FY 2011, disability retirees were paid approximately $1.36 billion. (As a result of
NDAA 2011, approximately $1.46 billion was paid in FY 2011.)

As of September 30, 2010, there were approximately 93,000 disability retirees receiving retired
pay. In FY 2010, disability retirees were paid approximately $1.37 billion.

Reserve Retirement

Members of the reserves may retire after 20 qualifying years of creditable service; however,
reserve retired pay is not payable until age 60 unless the member performs certain types of active
duty or active service specified in the National Defense Authorization Act (NDAA) for FY 2008
(P.L. 110-181). In these cases, the age at which the reserve retiree may collect is reduced below
age 60 by 3 months for every 90 days of such service performed within a fiscal year. However,
the age cannot go below 50, and eligibility for retiree health benefits remains at age 60 even if
the eligibility age for receipt of retired pay is reduced.

Retired pay is computed as base pay multiplied by 2.5 percent for each year of service. If the
Reservist was first a member of a Uniformed Services before September 8, 1980, base pay is
defined as the active duty basic pay in effect for the retiree’s grade and years of service at the
time retired pay begins. If the Reservist first became a member of the armed services on or after
September 8, 1980, base pay is the average basic pay for the member’s grade in the highest 36
months computed as if he/she was on Active Duty for the entire period preceding retired pay
commencement. The years of service are determined by using a point system, where 360 points
convert to one year of service. Typically, one point is awarded for one day of Active Duty
service (e.g. Active Duty training) or one inactive duty training (IDT) drill attendance.


       7   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Reservists often perform two IDT periods in one day, thereby receiving 2 retirement points per
day. In addition, 15 points are awarded for completion of one year’s membership in a reserve
component. A creditable year of service is one in which the member earned at least 50 points. A
member generally cannot retire with less than 20 creditable years, although points earned in non-
creditable years are used in the retirement calculation.

Beginning with years of service that include October 30, 2007, non-active duty points are limited
to no more than 130 in any one year. Lower point limitations have applied in the past.

As of September 30, 2011, there were approximately 365,000 reserve retirees receiving retired
pay. In FY 2011, reserve retirees were paid approximately $5.10 billion. (As a result of NDAA
2011, approximately $5.52 billion was paid in FY 2011.)

As of September 30, 2010, there were approximately 355,000 reserve retirees receiving retired
pay. In FY 2010, reserve retirees were paid approximately $4.96 billion.
Survivor Benefits

Legislation originating in 1953 provided optional survivor benefits, later referred to as the
Retired Servicemen’s Family Protection Plan (RSFPP). The plan proved to be expensive to the
participants and inadequate, since the survivor annuities were never adjusted for inflation and
could not be more than 50 percent of retired pay. RSFPP was designed to be self-supporting.

On September 21, 1972, RSFPP was replaced by the Survivor Benefit Plan (SBP) for new
retirees. RSFPP still covers those servicemen retired before 1972 who did not convert to the new
plan or who retained RSFPP in conjunction with SBP. RSFPP continues to pay survivor
annuities.

Retired pay is reduced, before taxes, for the member’s cost of SBP. Total SBP costs are shared
by the Government and the retiree, so the reductions in retired pay are only a portion of the total
cost of the SBP program.

The SBP survivor annuity is 55 percent of the member’s base amount. The base amount is
elected by the member, but cannot be less than $300 or more than the member’s full gross
monthly retired pay, with one exception. If the member elects CSB/Redux and is subject to a
penalty for service under 30 years in the calculation of retired pay, the maximum base amount is
equal to the full retired pay without the penalty. However, the annuity for a survivor of a
CSB/Redux retiree is subject to the reduced CPI.

When SBP started in 1972, survivor benefits for those 62 and older were reduced by the
estimated amount of Social Security for which the survivor would be eligible based on the
member’s military pay. In 1985, that reduction formula was changed so all annuitants 62 and
over received a reduced flat rate of 35 percent of the member’s base amount. Beginning October
1, 2005, the reduced rate at age 62 was phased out in increments of 5 percent. On April 1, 2008,
the survivor benefit reduction at age 62 was fully eliminated and the rate of 55 percent of the
member’s elected base amount became the standard for all survivors, regardless of age.



       8   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

During FY 1987, SBP’s benefits to those survivors who had remarried were changed. Prior to
the change, the survivor annuity benefit for a surviving spouse who remarried before age 60 was
suspended. In FY 1987, SBP changed to suspend benefits when the remarriage occurred at the
age of 55. If the remarriage ends in divorce or death, the annuity is reinstated.

Members who died on Active Duty, in the line of duty on or after September 11, 2001, are
assumed to have retired with full disability on the day they died and to have elected full SBP
coverage for spouses, former spouses, and/or children. Insurable interest elections may be
applicable in some cases. These benefits have been improved and expanded over the history of
the program.

The surviving spouse (or dependent children, if there is no surviving spouse or if the spouse
subsequently dies) of a reservist who dies in the line of duty while performing inactive service is
entitled to an SBP annuity based on the reservist’s years of service.

SBP annuities generally are reduced by any Department of Veterans Affairs (VA) survivor
benefits (Dependency and Indemnity Compensation [DIC]), and all premiums relating to the
reductions are returned to the survivor. The 2008 NDAA enacted, and the Family Smoking
Prevention and Tobacco Control Act of 2009 (P.L. 111-31) revised, a temporary Special
Survivor Indemnity Allowance (SSIA) that pays a monthly amount ($50 in FY 2009 gradually
increasing to $310 in FY 2017) to survivors with a DIC offset. The authority for the allowance
ends in 2017.

The relationship between SBP and DIC has been the subject of litigation in the U.S. Court of
Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement to
both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.

As with retired pay, SBP annuities and premiums are annually increased with cost of living
adjustments (COLAs). These COLAs are either full or partial CPI increases, depending on the
benefit formula covering the member. If a member who elected the CSB dies before the age of
62, the survivor’s benefit is subject to partial COLAs and his/her annuity increased, on what
would have been the member’s 62nd birthday, to the amount that would have been payable had
full COLAs been in effect. Partial COLAs continue annually thereafter.

For reserve retirees, the retired pay reductions applicable under SBP take effect for survivor
coverage after a Reservist turns 60 (or earlier if they have certain active service) and begins to
receive retired pay. The Reserve Component Survivor Benefit Plan (RC-SBP) provides
annuities to survivors of Reservists who die before age 60 (or earlier if they have certain active
service) provided they attained 20 years of qualified service and elected to participate in the
program (or were within their 90-day election window after receiving a letter confirming 20
years of credible service. However, if the death occurs either on active or inactive duty as
described above, the survivor receives an annuity under SBP. The added cost of RC-SBP is
borne completely by Reservists through deductions from future retired pay.




       9   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Beginning October 1, 2008, a “paid-up” provision eliminated the reduction in retired pay for
premiums for SBP, RC-SBP and RSFPP coverage for participants age 70 or older whose retired
pay had been reduced for at least 360 months.

As of September 30, 2011, there were approximately 294,000 survivors of military members
receiving annuity payments. In FY 2011, survivors were paid approximately $3.61 billion.
(Not affected by NDAA 2011.)

As of September 30, 2010, there were approximately 294,000 survivors of military members
receiving annuity payments. In FY 2010, survivors were paid approximately $3.62 billion.

Temporary Early Retirement Authority (TERA)

The NDAA for FY 1993 (P.L. 102-484) granted temporary authority for the military services to
offer early retirements to members with more than 15 but less than 20 years of service. This
authority expired on September 1, 2002. The retired pay was calculated in the usual way, except
that there was a reduction of 1 percent for every year below 20 years of service. Part or all of
this reduction can be restored at age 62 if the retired member works in a qualified public service
job during the period from the date of retirement to the date on which the retiree would have
completed 20 years of service. Unlike members who leave military service before 20 years with
Voluntary Separation Incentives or Special Separation Benefits, these early retirees are generally
treated like regular military retirees for the purposes of other retirement benefits.

As of September 30, 2011, there were approximately 57,000 TERA retirees receiving retired
pay. In FY 2011, TERA retirees were paid approximately $907 million. (As a result of NDAA
2011, approximately $982 million was paid in FY 2011.)

As of September 30, 2010, there were approximately 57,000 TERA retirees receiving retired
pay. In FY 2010, TERA retirees were paid approximately $903 million.

Cost-of-Living Increase

All non-disability retirement, disability retirement, and most survivor annuities are adjusted
annually for inflation. COLAs are automatically scheduled to occur every 12 months, on
December 1, to be reflected in checks issued at the beginning of January.

The “full” COLA, effective December 1, is computed by calculating the percentage increase in
the average CPI from the third quarter of the prior calendar year to the third quarter of the current
calendar year. The increase is based on the Urban Wage Earner and Clerical Worker Consumer
Price Index (CPI-W) and is rounded to the nearest tenth of one percent.

The benefits of retirees (and most survivors) are increased annually with the full COLA, except
for those first entering the armed services on or after August 1, 1986, who elect the $30,000
CSB. Their benefits are increased annually with a partial COLA equal to the full COLA minus 1
percent (except if the full COLA is less than or equal to 1 percent). A one-time restoral is given


      10   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

to a partial COLA recipient on the first day of the month after the retiree’s 62nd birthday. At this
time, retired pay (or the survivor benefit, if the retiree is deceased) is increased to the amount
that would have been payable had full COLAs been in effect. Annual partial COLAs continue
after this restoral.

Fund Relationships


Department of Veterans Affairs Benefits

The VA provides compensation for Service-connected and certain non-Service-connected
disabilities. These VA benefits can be in place of or in combination with DoD retired pay, but
through December 31, 2003, were not fully additive. Since VA benefits are exempt from federal
income taxes, it is often to the advantage of a member to elect them. Through calendar year
2003, retired pay earned from the Department for military service was offset by any payment
received from VA for a VA-rated disability. Beginning with the NDAA for FY 2004 (P.L. 108-
136), a series of legislation has been enacted that increasingly reduces or eliminates the offset to
military retired pay due to receipt of VA disability compensation. Members with a combined
VA disability rating of 50 percent or greater who have at least 20 years of service will have their
offset eliminated under the Concurrent Retirement and Disability Pay (CRDP) program. The
CRDP program has a 10-year phase-in schedule that began in 2004; however, the offset is
already fully eliminated for members whose disabilities are rated total or make the individual
unemployable. Members whose disability meets certain combat-related criteria can elect to
receive payments against the offset under the Combat Related Special Compensation (CRSC)
program. Under CRSC, members are not subject to a phase-in schedule, are not required to have
at least 20 years of service, and are not required to have at least a 50 percent VA disability rating.
Although CRSC amounts are calculated based on retired pay lost due to offset and are paid from
the MRF, CRSC is not technically considered retired pay. CRSC payments are tax exempt. A
member may not participate in both the CRDP and CRSC programs simultaneously, but may
change from one to the other during an annual “open season.”

VA benefits also overlap survivor benefits through the DIC program. DIC is payable to
survivors of veterans who die from Service-connected causes. Although an SBP annuity must be
reduced by the amount of any DIC benefit, all SBP premiums relating to the reduction in benefits
are returned to the survivor. The 2008 NDAA enacted, and the Family Smoking Prevention and
Tobacco Control Act of 2009 (P.L. 111-31) revised, a temporary Special Survivor Indemnity
Allowance that pays a monthly amount ($50 in FY 2009 gradually increasing to $310 in FY
2017) to survivors with a DIC offset. The authority for this allowance ends in 2017.

The offset relationship between SBP and DIC has been the subject of litigation in the U.S. Court
of Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement
to both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.




      11   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Other Federal Service

For military retirement purposes, no credit is given for other federal service, except for TERA
and where cross-service transferability is allowed. Military service is generally creditable
toward the federal civilian retirement systems if military retired pay is waived. However, a
deposit (equal to a percentage of post-1956 basic pay) must be made to the Civil Service
Retirement and Disability Fund in order to receive credit. Military service is not generally
creditable under both systems (but is for reservists and certain disability retirees). Military
retirees may qualify separately for Civil Service retirement and receive concurrent pay from both
systems.

Retired Pay to Military Compensation

Basic pay is the only element of military compensation upon which non-disability retired pay is
based and entitlement is determined. Basic pay is the principal element of military compensation
that all members receive, but it is not representative of salary levels in the public and private
sectors for comparative purposes. Reasonable comparisons can be made to regular military
compensation (RMC). RMC is the sum of (1) basic pay; (2) the housing allowance, which varies
by grade, location, and dependency status; (3) the subsistence allowance; and, (4) the tax
advantages accruing to allowances because they are not subject to federal income tax. Basic pay
represents approximately 69 percent of RMC for all retirement eligible members. For the 20-
year retiree, basic pay is approximately 68 percent of RMC. Consequently, a member retired
with 20-years of service and entitled to 50 percent of basic pay only receives 34 percent of RMC.
For a 30 year retiree, basic pay is approximately 73 percent of RMC and such member would be
entitled to 75 percent of basic pay or 55 percent of RMC. P.L. 109-364 allows members, who
retire after January 1, 2007, with greater than 30 years of service, to retire with entitlements
exceeding 75 percent of basic pay. These relationships should be considered when military
retired pay is compared to compensation under other retirement systems

Social Security Benefits

Many military members and their families receive monthly benefits indexed to the CPI from
Social Security. As full participants in the Social Security system, military personnel are in
general entitled to the same benefits and are subject to the same eligibility criteria and rules as
other employees. Details concerning the benefits are covered in other publications.

Beginning in 1946, Congress enacted a series of amendments to the Social Security Act that
extended some benefits to military personnel and their survivors. These “gratuitous” benefits
were reimbursed out of the general fund of the U.S. Treasury. The Servicemen’s and Veterans’
Survivor Benefits Act brought members of the military into the contributory Social Security
system effective January 1, 1957.

For the Old Age, Survivors, and Disability Insurance (OASDI) program, military members must
contribute the employee portion of the OASDI payroll tax, with the Federal Government



      12   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

contributing the matching employer contribution. Only the basic pay of a military member
constitutes wages for Social Security purposes. One feature of OASDI unique to military
personnel grants a noncontributory wage credit of (i) $300 for each quarter between 1956 and
1978 in which such personnel received military wages and (ii) up to $1,200 per year after 1977
($100 of credit for each $300 of wages, up to a maximum credit of $1,200). The purpose of this
credit is to take into account elements of compensation, such as quarters and subsistence, not
included in wages for Social Security benefit calculation purposes. Under the 1983 Social
Security amendments, the cost of the additional benefits resulting from the noncontributory wage
credits for past service was met by a lump sum payment from general revenues, while the cost
for future service will be met by payment of combined employer-employee tax on such credits as
the service occurs. Payments for these wage credits ended in 2002.

Members of the military also are required to pay the Hospital Insurance payroll tax, with the
Federal Government contributing the matching employer contribution. Medicare eligibility
occurs at age 65, or earlier if the employee is disabled.

Significant Changes


During FY 2011 and FY 2010

Changes in the MRF valuation during FY 2011 included:

   1) new long-term economic assumptions due to the Federal Accounting Standards Advisory
      Board (FASAB) financial reporting Statement of Federal Financial Accounting Standards
      No. 33 (SFFAS No. 33), discussed further in Note 9, Military Retirement Benefit
      Liabilities;
   2) new retired pay offset factors and adjustments;
   3) new mortality improvement factors; and
   4) miscellaneous modeling refinements.

Of the changes listed above, SFFAS No. 33, which provides standards for selecting discount rate
assumptions and the valuation date for measuring pension liabilities, was the most significant.
SFFAS No. 33 requires the use of a yield curve based on marketable Treasury securities to
determine the interest rates used to calculate actuarial liabilities for federal financial statements.
Historical experience is the basis for expectations about future trends in marketable Treasury
securities. The DoD Board of Actuaries approved items 2 – 4 at their July 2011 meeting. Item 1
is prescribed per standard and therefore the resulting economic assumptions will be different
than those assumed by the DoD Board of Actuaries for funding calculations.

There were no legislative benefit changes during FY 2011 that impacted the valuation.

Changes during FY 2010 included: (1) initial implementation of SFFAS No. 33; (2) new non-
disabled retirement rates; and (3) new Active Duty decrement rates. All items 1 – 3 are
classified as assumption changes to the actuarial valuation. Of these, the initial implementation
of SFFAS No. 33 (item 1) was the most significant. The DoD Board of Actuaries approved


      13   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

assumption items 2 and 3 at their July 2010 meeting. Item 1 is prescribed per standard and the
resulting economic assumptions will be different than those assumed by the DoD Board of
Actuaries for funding calculations.

Changes for FY 2012

The potential benefit changes with respect to the MRF in FY 2012 include:

   1)    reform of the Military Retirement System;
   2)    expansion of the SSIA;
   3)    Concurrent Receipt enhancements;
   4)    refinements to the Active and Reserve Duty systems; and
   5)    “Wounded Warrior” legislation reforming the disability retirement system.

Performance Measures

During FY 2011 and 2010, MRF made monthly disbursements to approximately 2.2 million
retirees and annuitants.

While there are many ways to measure the funding progress of a pension plan, the ratio of assets
in the fund to the present value of future benefits for the annuitant population is commonly used.
The following information provides the historical ratios for the last 10 years:

   1) September 30, 2011 = 46.2%
   2) September 30, 2010 = 43.1%
   3) September 30, 2009 = 38.0%
   4) September 30, 2008 = 35.4%
   5) September 30, 2007 = 34.3%
   6) September 30, 2006 = 32.8%
   7) September 30, 2005 = 33.4%
   8) September 30, 2004 = 33.8%
   9) September 30, 2003 = 35.1%
   10) September 30, 2002 = 37.8%

The effective yield of MRF during FY 2011 was approximately 4.9%.

Projected Long-Term Health of the Fund

The projected long-term health of MRF is adequate due to the fact that it has three different
sources of funding. The first two sources are appropriated funds:

   1) annual payments from Treasury to amortize the unfunded liability and pay the normal
      cost of the concurrent receipt benefits; and



        14   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

   2) monthly normal cost payments from the Services to pay for the current year’s service
      cost.

The third source of funding is earnings on investments, projected to be an increasing contribution
to the MRF as the earnings on the investments increase due to an increasing fund balance. All
three of these sources can be considered secure sources of funding, backed by the “full faith and
credit” of the U.S. Government.

U.S. Credit Rating Downgrade

On August 5, 2011, Standard & Poor’s (S&P), a Nationally Recognized Statistical Rating
Organization, downgraded the long-term U.S. credit rating by one notch to “AA+” (from the
highest rating of “AAA”). The S&P downgrade followed a fiscal plan that Congress and the
administration had agreed upon to reduce spending (that S&P viewed as inadequate), and
increase the statutory borrowing authority (debt ceiling). In spite of the downgrade, U.S.
Treasury instruments are still considered to be a “safe haven” for the world’s investment
community, as evidenced by their continued low yields. The “safe haven” distinction is partly a
result of the U.S. dollar carrying the status of the world’s reserve currency, as well as their
attractiveness relative to bonds of other nations.

Per FASAB standard (SFFAS No. 33), the MRF is required to set the interest rate assumption for
present value estimates based on historical experience of marketable U.S. Treasury securities.
This means that a financial shock affecting U.S. Treasury yields in a given quarter will be
incorporated in the interest assumption as experience emerges, which is currently over a 10-year
period (or 40 quarters).

Unified Budget of the Federal Government

The Military Retirement Trust Fund was created inside the Unified Budget of the Federal
Government for the monies of the MRS. All three sources of fund income are intra-
governmental transactions consisting of transfers from one Government account to another. The
only transactions in a particular year that directly affect the deficit of the Unified Budget are
those that pass in or out of the Government, such as tax collections (“in”) and beneficiary
payments (“out”). These intra-governmental transfers are debits and credits within the federal
budget, with no direct effect on the deficit. Conversely, the purchase of securities by the Fund
does increase the national debt, specifically the portion of the debt held by the Government – the
portion held by the public will not change.

See Figure 1.




      15   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________


                                          UNIFIED BUDGET
              TAXES



       DOD NORMAL COST                 INTRAGOVERNMENTAL TRANSFER
          PAYMENTS



      TREASURY PAYMENTS
                                       INTRAGOVERNMENTAL TRANSFER




                                                                                     MILITARY
                                                                                    RETIREMENT
                                                                                       FUND
      TREASURY PAYMENTS
        OF INTEREST PLUS
                                       INTRAGOVERNMENTAL TRANSFER
         PAR VALUE AT
            MATURITY




            TREASURY
            SECURITIES                 INTRAGOVERNMENTAL TRANSFER




                                                                                     OUTLAYS


                                          Figure 1. Unified Budget

However, funding does have an effect on the DoD budget. With the normal cost payments
(except for Concurrent Receipt) included in the DoD budget, policymakers now consider the
impact on future retirement costs when they make manpower decisions, which could have a
significant impact on future federal budgets. For example, if a decision were made today to
double the size of the active duty and reserve forces, the DoD budget would automatically have
an immediate increase in retirement obligations. Under the pay-as-you-go system, the retirement
expenses would not necessarily be considered in the initial decision since they would not show
up for 20 years.

The fact that MRF costs are fully recognized in advance provides greater benefit security over
the long term. Also, when there is a retirement fund, the MRS is not as dependent on obtaining
the necessary appropriation from Congress each year in order to pay benefits for that year. This
can provide additional benefit security in the short run.

20-Year Projection

Table 3 presents a projection of contributions to and disbursements from the MRF. It includes
the dollar amounts as a percent of payroll. The Fund is projected to remain solvent over the 20-


      16   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
         Management’s Discussion and Analysis________________________________

         year projection period. Further, so long as the funding sources continue making the required
         payments to the MRF in a timely fashion, the Fund is projected to remain solvent well beyond
         the 20-year projection horizon.

         The following projections were made for FY 2011:

                       Basic pay for FY 2011 was projected to be $60.8 billion.
                       Normal cost payments were projected to be $24.1 billion.
                       The unfunded liability amortization payment was projected to be $61.4 billion.
                       Investment income was projected to be $21.8 billion.
                       Fund disbursements for FY 2011 were projected to be $50.8 billion.

                                                 MILITARY RETIREMENT SYSTEM
                                          PAST AND PROJECTED FLOW OF PLAN ASSETS
                                           (In Billions of Dollars and as a Proportion of Payroll)

Fiscal        Basic         Normal Cost          Amortization of           Investment               Fund            Fund Balance
Year         Payroll         Payments           Unfunded Liability           Income             Disbursements        End of Year

2012          $63.1        $26.3   (0.417)        $64.8    (1.027)       $24.9   (0.395)        $51.7   (0.819)    $442.5     (7.013)
2013          $64.8        $27.0   (0.417)        $67.2    (1.037)       $28.7   (0.443)        $53.1   (0.819)    $512.3     (7.906)
2014          $66.7        $27.8   (0.417)        $69.7    (1.045)       $32.9   (0.493)        $54.7   (0.820)    $588.0     (8.816)
2015          $68.6        $28.6   (0.417)        $72.3    (1.054)       $37.3   (0.544)        $56.2   (0.819)    $670.0     (9.767)
2016          $70.3        $29.2   (0.415)        $75.0    (1.067)       $42.2   (0.600)        $57.8   (0.822)    $758.7    (10.792)

2017          $72.2        $30.0   (0.416)        $77.8    (1.078)       $47.4   (0.657)        $59.4   (0.823)     $854.6   (11.837)
2018          $74.4        $31.0   (0.417)        $80.8    (1.086)       $53.1   (0.714)        $60.9   (0.819)     $958.5   (12.883)
2019          $76.7        $31.9   (0.416)        $83.8    (1.093)       $59.2   (0.772)        $62.6   (0.816)   $1,070.8   (13.961)
2020          $79.2        $32.9   (0.415)        $86.9    (1.097)       $65.8   (0.831)        $64.9   (0.819)   $1,191.6   (15.045)
2021          $82.0        $34.1   (0.416)        $90.2    (1.100)       $72.9   (0.889)        $67.3   (0.821)   $1,321.6   (16.117)

2022          $84.9        $35.3   (0.416)        $93.6    (1.102)       $80.6   (0.949)        $69.9   (0.823)   $1,461.1   (17.210)
2023          $87.9        $36.6   (0.416)        $97.1    (1.105)       $88.8   (1.010)        $72.6   (0.826)   $1,611.0   (18.328)
2024          $91.0        $37.8   (0.415)       $100.7    (1.107)       $97.6   (1.073)        $75.4   (0.829)   $1,771.8   (19.470)
2025          $94.2        $39.2   (0.416)       $104.5    (1.109)      $107.0   (1.136)        $78.2   (0.830)   $1,944.2   (20.639)
2026          $97.5        $40.5   (0.415)       $108.4    (1.112)      $117.1   (1.201)        $81.1   (0.832)   $2,129.1   (21.837)

2027         $100.9        $41.9   (0.415)        -$2.3    (0.023)      $121.3   (1.202)        $84.2   (0.834)   $2,205.9   (21.862)
2028         $104.5        $43.4   (0.415)        $14.1    (0.135)      $126.6   (1.211)        $87.5   (0.837)   $2,302.5   (22.033)
2029         $108.4        $45.0   (0.415)        $14.6    (0.135)      $132.2   (1.220)        $90.9   (0.839)   $2,403.4   (22.172)
2030         $112.4        $46.7   (0.415)        $15.2    (0.135)      $138.0   (1.228)        $94.1   (0.837)   $2,509.1   (22.323)
2031         $116.5        $48.4   (0.415)        $15.7    (0.135)      $144.0   (1.236)        $97.5   (0.837)   $2,619.8   (22.488)

                              Table 3. Military Retirement System Past and Projected Flow of Plan Assets
         NOTES: - The preceding projections assume a long-term 5.75% interest rate each year.
                - The projections willvary in the short-term depending on the actual economic experience.
                - The table is also presented in the September 30, 2010, ‘Valuation of the Military Retirement System.’
                - The above Fund Disbursements do not include the effect of NDAA 2011 (retired pay date change).




                17     Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Expected Problems

There are no foreseen major problems with respect to MRF that would require disclosure in the
Management’s Discussion and Analysis.


Investments


                                               Investments as of 9/30/11
                                                   ($371.62 billion)


                                                 Interest Receivable,
                            Overnight
                                                       3.41, 1%
                         Securities, 14.25,
                                4%                                      Notes, 21.48, 6%

                    Inflation, 57.36,                                             Bonds, 11.67, 3%
                           15%




                                                         TIPS, 263.45, 71%




                                              Figure 2. Investments

Figure 2 depicts the book value (par plus premium/discount less amortization of
premium/discount plus interest receivable) of investment holdings as of September 30, 2011

Management Oversight

The Fund receives management oversight from the DoD Investment Board established in
September 2003. The members of the Investment Board are the Director, DFAS; the Deputy
CFO, OUSD(C); and a senior military member, currently the Director, Army Budget. The
Investment Board meets twice each fiscal year to consider investment objectives, policies,
performance, and strategies with the goal of maximizing MRF's investment income. The
Investment Board reviews MRF's law and Department of Treasury guidelines to ensure that
MRF complies with board policy guidance and public law. At the September 14, 2011 meeting,
the Investment Board approved the FY 2012 investments recommended by the new Investment
Advisory Committee (a group of Military Reservists whose civilian expertise is investing). No
changes were made to the Investment Policy Statement that incorporated all previously approved
strategies into one document. This includes a ladder approach for investments and the “hold to
maturity” policy.




     18   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Anticipated Changes between the Expected and Actual Investment Rate of Return

The past few years has seen increased volatility in interest rates, increased volatility in equity
markets, increasing deficits, volatility in the markets with regard to energy prices, elevated states
of international conflict, increasing sovereign debt levels, and slow economic growth. These
items have been a catalyst in the current discussion of implementing strong U.S. fiscal control
and monetary policy among politicians. This would necessitate increased borrowing by the U.S.
Government for the foreseeable future and there may therefore be a greater opportunity to
purchase Treasury market securities at higher rates of interest. Conversely, uneasy equity
markets tend to push participants toward Government securities causing downward pressure on
the interest rates. Modern corporate financial theory also suggests that non-Federal Government
firms may tend to increase pension plan investments in Government securities. An investment
strategy has been developed to shift toward U.S. Treasury Inflation-Protected Securities (TIPS)
to hedge against any future inflation to maximize the return of MRF over time.

The Fund receives investment income from a variety of U.S. Treasury-based instruments such as
bills, notes, bonds and overnight investment certificates. U.S. Treasury bills are short-term
securities with maturities of less than one year issued at a discount. U.S. Treasury notes are
intermediate securities with maturities of one to 10 years. U.S. Treasury bonds are long-term
debt instruments with maturities of greater than 10 years. Overnight certificates are interest-
based market securities purchased from the U.S. Treasury that mature the next business day and
accrue interest based on the Federal Reserve Bank of New York survey of Reserve repurchase
agreement rates.

The Fund also invests in TIPS, which are indexed for inflation. TIPS are fixed-rate instruments
designed to protect against inflation and the principal amount is indexed to the CPI by adjusting
the CPI at issuance to the current CPI; as inflation increases, so does the principal amount and
the coupon.




      19   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

Financial Performance Overview
Financial Data

Table 4, presents comparative financial statement information for the MRF

                                              Military Retirement Fund
                                         Analysis of Financial Statements
                                   For the Years Ended September 30, 2011 and 2010
                                                   ($ in Thousands)

                                                                                                 Difference        %
                    Balance Sheet                                2011                 2010        Increase /     Change
                                                                                                 (Decrease)
Fund Balance with Treasury
 Sufficiency of funds available to cover estimated
   disbursements                                                 $370,337              $25,383      $344,953      1359%
Investments
 Intragovernmental Securities plus Accrued Interest          $371,616,281       $321,686,840     $49,929,440        16%
Account Receivable, Net amounts, including both inter-
and intra-governmental
 Continued emphasis placed on collecting these amounts           $233,475              $37,043      $196,433       530%
Other Liabilities
   Custodial Liability due to Treasury                              $1,680              $1,819         ($139)       -8%
  Military Retirement Benefit Liabilities
   Change in Prescribed SFFAS No. 33 Assumptions           $1,361,267,842     $1,262,672,927     $98,594,914        8%
Cumulative Results of Operations
Difference is the increase of the total liability
over total assets, of which Actuarial Liability
increased by $102.5 billion and total assets
increased by $50.5 billion.                                  ($989,049,609)     ($940,925,661)   ($48,123,947)      -5%
              Statement of Net Costs
Gross Cost of Operations
  - Higher Actuarial Liability in FY 11 due to Change in
    Prescribed SFFAS No. 33 Assumptions                      $153,446,332       $136,097,972     $17,348,360        12%
       Statement of Budgetary Resources
Distributed Offsetting Receipts
  - Unfunded liability amortization payment
    (FY 11) from Treasury                                     $61,404,000        $58,619,000      $2,785,000        5%

                                    Table 4. Analysis of Financial Statements


Assets

Assets of $372.2 billion included in Table 4 and shown in Figure 3 represent amounts that the
MRF owns and manages. Assets increased $49.93 billion, 16%, at the end of FY 2011. This
increase is largely attributable to purchasing new investments of $43.4 billion with funds
received from the U.S. Treasury payments, Service contributions, and interest received. The net
increase in investments is related to expected normal growth to cover unfunded portions of future



       20    Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

military retirement benefits. Funds not needed to pay current benefits are held in separate trust
and special funds and invested in U.S. Treasury securities.

                                                            Total Assets
                                                       (372,220,093 thousand)

                                                                                   Fund Balance With
                                Accounts Receivable,                               Treasury, $370,337 ,
                                 $233,475 , 0.063%                                       0.099%




                                                       Investments, $371,616,281
                                                              , 99.838%




                                                  Figure 3. Total Assets


Liabilities

Liabilities of $1.36 trillion included in Table 4 and shown in Figure 4 represent liabilities related
to military retirement pension benefits. The liabilities of the MRF primarily consist of actuarial
liability for future benefit payments. Liabilities increased $98.59 billion, 8%, at the end of FY
2011. This increase is largely attributable to the increase in the actuarial liability calculation.

                                                        Total Liabilities
                                                   ($1,361,269,702 thousand)                        Other
                       Other Nonfederal                                                      Intragovernmental
                       Liabilities, $180 ,                                                   Liabilities, $1,680 ,
                           0.000%                                                                  0.123%




                                                        Military Retirement
                                                        and Other Federal
                                                       Employment Benefits,
                                                         $1,361,267,842 ,
                                                             100.000%


                                                Figure 4. Total Liabilities




      21      Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

The MRF is confident in its ability to meet its financial obligations. Of the $1.36 trillion in
liabilities, approximately $368 billion (27%) is covered primarily by investments in U.S.
Treasury securities (Figure 5). While the liability presents a negative financial position, the
majority of the unfunded portion will come from annual appropriations external to DoD,
ensuring benefits are paid regardless of available assets. The initial unfunded actuarial liability,
$529 billion in 1984, is being amortized over 42 years and is expected to be fully funded through
U.S. Treasury contributions by FY 2026. The current investments, the interest received on the
investments, and the amortization of the initial liability will provide sufficient funds to cover the
financial obligations of the MRF.

                                           Funded and Unfunded Liabilities
                                                   ($1.36 trillion) Liabilities Covered
                                                                             by Budgetary
                                                                              Resources,
                                                                          $368,236,009,487.06
                                                                                 , 27%



                Liabilities Not
                 Covered by
                  Budgetary
                 Resources,
             $992,686,495,512.94
                    , 73%




                                 Figure 5. Funded and Unfunded Liabilities


Management Assurances

Agencies are required to provide certain assurances as to the status and effectiveness of the
internal controls and financial management systems that support the preparation of the financial
statements. In the context of the MRF Management’s Discussion and Analysis, DoD, and not
MRF, represents the legislative definition of an agency. Beginning with FY 2006, as directed in
Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, Appendix A, Internal Control over Financial Reporting, the 24 CFO Act
agencies (including DoD), are required to provide a separate assessment of the effectiveness of
the internal controls over financial reporting as a subset of the overall Federal Managers
Financial Integrity Act (FMFIA) assurance statement.

In FY 2011, MRF management determined that the MRF has effective internal controls to
support effective and efficient programmatic operations and reliable financial reporting. In
FY 2009, the MRF management implemented corrective actions to become substantially
compliant with applicable laws and regulations (FMFIA § 2). The current financial management




      22   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

systems conforms to financial systems requirements as of year-end and is substantially FMFIA
compliant.

The MRF management is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of the FMFIA. The MRF conducted
its assessment of the effectiveness of internal control over the effectiveness and efficiency of
operations and compliance with applicable laws and regulations in accordance with OMB
Circular A-123, Management's Responsibility for Internal Control. Based on the results of this
evaluation, the MRF can provide reasonable assurance that its internal controls over the
effectiveness and efficiency of operations and compliance with applicable laws and regulations
for FY 2011 were operating effectively and no material weaknesses were found in the design or
operation of the internal controls.

In addition, MRF conducted its assessment of the effectiveness of internal control over financial
reporting, which includes safeguarding of assets and compliance with applicable laws and
regulations, in accordance with the requirements of Appendix A of OMB Circular A-123. Based
on the results of this evaluation, the MRF can provide reasonable assurance that its internal
control over financial reporting as of June 30, 2011 was operating effectively and no material
weaknesses were found in the design or operation of the internal control over financial reporting.
Improper Payments Information Act of 2002 (Public Law No. 107-300)

The MRF public accounts receivable, $49.6 million, consists mostly of improper payments to
deceased retirees and survivors. This is less than 0.02% of the total assets and less than 0.1% of
the annual incurred benefit outlays. In comparison, on the FY 2010 Government-Wide Financial
statements, that same figure (as a percent of total assets) was about 3%.

The Improper Payments Information Act of 2002, as implemented by OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments,
requires Federal agencies to review all programs and activities annually and identify those that
may be susceptible to significant erroneous payments (i.e., programs with erroneous payments
exceeding both $10 million and 2.5% of program payments). The terms improper and erroneous
are used interchangeably. An improper payment occurs when the funds go to the wrong
recipient, the recipient receives the incorrect amount of funds, or the recipient receives payment
for an ineligible service. Improper payments also include duplicate payments and payments for
services not received.

The MRF’s risk assessments address the effectiveness of internal controls in place to prevent
improper payments (such as prepayment reviews) as well as system weaknesses identified
internally or by outside audit activities. While MRF’s improper payment percentages are
extremely low, numerous pre- and post-payment controls further minimize and eliminate
improper payments.

Payments to deceased retirees continue to be the highest risk for improper payments in military
retired pay. In certain situations, payment to deceased retirees is unavoidable due to payment
cycle dates and the fact that notifying a payroll activity is not likely to be the first action for next-
of-kin at the time of a retiree’s passing. A review of confirmed payments to deceased retirees in


      23   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Management’s Discussion and Analysis________________________________

FY 2008 indicated that the Department recovered 96% of the overpayment amounts within 60
days, demonstrating the effectiveness of controls within the retired pay system once a retiree’s
death confirmation is received and processed for final disposition.

The MRF’s control processes to prevent, identify, and reduce overpayments to deceased retirees
include a series of periodic eligibility notifications, early detection data mining efforts, and
partnerships with other Federal and state entities. The MRF takes a proactive approach,
routinely comparing retired and annuity payroll master file databases to Social Security
Administration “deceased” records and periodically comparing records with the Office of
Personnel Management deceased files. “Ad hoc” death match file comparisons are also
conducted with the VA’s cemetery database files and with individual states (e.g., Texas,
California, Florida) with sizable retiree and annuitant populations. Retirees identified as
deceased in these comparisons must validate their continued eligibility, or the accounts are
suspended.

Certifying officer legislation holds certifying and disbursing officers accountable for
Government funds. In accordance with section 2773a of title 10, U.S.C., pecuniary liability
attaches automatically when there is a fiscal irregularity, i.e., (1) a physical loss of cash,
vouchers, negotiable instruments, or supporting documents; or (2) an improper payment. Efforts
to recover from a recipient must be undertaken in accordance with the debt collection procedures
in Volume V, Chapters 29 and 30, of the DoD Financial Management Regulation.

Limitations of the Financial Statements

These financial statements have been prepared to report the financial position and results of
operations for the MRF pursuant to the requirements of the Chief Financial Officers Act (CFO)
of 1990. While the statements have been prepared from the books and records of MRF in
accordance with the generally accepted accounting principles for Federal entities and formats
prescribed by the OMB, the statements are in addition to the financial statements used to monitor
and control budgetary resources that are prepared from the same books and records. These
statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity. Unfunded liabilities reported in the financial statements cannot
be liquidated without the enactment of an appropriation.




      24   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
DoD IG Transmittal of Auditor’s Opinion_____________________________

                           DoD Transmittal of Auditors’ Opinion




    25   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report________________________________________


      Acuity Consulting, Inc.
       Bringing Tomorrow’s Solutions into Focus Today
     2800 Eisenhower Avenue, Suite 100                                              Phone (703) 739-1091
     Alexandria, VA 22314                                                             Fax (703) 329-0294


                                   Independent Auditors’ Report

TO: The Audit Committee of the Department of Defense Military Retirement Fund
    The Deputy Under Secretary of Defense for Program Integration, Department of Defense

Introduction
We have audited the balance sheets of the Department of Defense (DoD) Military Retirement
Fund (MRF or the Fund) as of September 30, 2011 and 2010, as well as the related statements of
net cost, changes in net position, and budgetary resources (the financial statements) for the years
then ended. The objective of our audit was to express an opinion on the fair presentation of the
financial statements as of September 30, 2011 and 2010. In connection with our audits, we also
considered the Fund’s internal controls over financial reporting and tested the Fund’s compliance
with certain provisions of applicable laws and regulations that could have a direct and material
effect on its financial statements.

As stated in our opinion of the financial statements, we found that the Fund’s financial
statements as of and for the years ended September 30, 2011 and 2010, are presented fairly, in all
material respects, and in conformity with accounting principles generally accepted in the United
States of America.

Our consideration of internal controls would not necessarily disclose all significant deficiencies
in the internal control over financial reporting that might be significant deficiencies under
standards issued by the American Institute of Certified Public Accountants (AICPA) and Office
of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements. The audit disclosed no instances in which the Fund’s systems did not substantially
comply with the Federal Financial Management Improvement Act (FFMIA) of 1996 § 803(a)
requirements. The results of our tests of compliance with certain provisions of laws and
regulations did not disclose any instances of noncompliance required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States and
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The following sections discuss in more detail our report on the Fund’s financial statements, our
consideration of the internal control over financial reporting, and our tests of the Fund’s
compliance with certain provisions of applicable laws and regulations.




      26   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report________________________________________

Independent Auditors’ Report on the Financial Statements
We have audited the accompanying balance sheets of the Department of Defense (DoD) MRF as
of September 30, 2011 and 2010, and the related statements of net cost, changes in net position,
and budgetary resources for the years then ended. These financial statements are the
responsibility of the Fund’s management. Our responsibility is to express an opinion on the
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the requirements of OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and
the OMB bulletin require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

The MRF is required to invest in Treasury securities. On August 5, 2011 the U.S. credit rating
was downgraded to AA+ by a nationally recognized statistical rating organization. The detailed
discussion of this matter is included in Note 4.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the DoD MRF as of September 30, 2011 and 2010, and its net cost of
operations, changes in net position, and budgetary resources for the years then ended in
conformity with accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the basic financial statements
taken as a whole. The accompanying “Management’s Discussion & Analysis” and “Other
Accompanying Information” are not required parts of the basic financial statements, but are
supplementary information required by accounting principles generally accepted in the United
States of America, OMB Circular A-136, Financial Reporting Requirements, and the Federal
Accounting Standards Advisory Board (FASAB). This supplementary information is the
responsibility of the Fund’s management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. However, such information has not been
subjected to the auditing procedures applied in our audit of the basic financial statements and,
accordingly, we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated
November 4, 2011, on our consideration of the Fund’s internal control over financial reporting
and our tests of its compliance with certain provisions of laws, regulations, contracts,



      27   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report________________________________________

agreements, and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards, and should be considered in assessing the results of our audits.
Independent Auditors’ Report on Internal Control over Financial Reporting and on
Compliance and Other Matters Based Upon the Audit Performed in Accordance with
Government Auditing Standards
We have audited the financial statements of the DoD MRF as of and for the years ended
September 30, 2011 and 2010, and have issued our report thereon dated November 4, 2011. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the requirements of OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting as a basis for designing audit procedures for the purpose of expressing an opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Fund’s internal control over financial reporting. Accordingly, we do not express an opinion
on the Fund’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis.

A material weakness is a deficiency, or a combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be deficiencies, significant deficiencies, or material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above. However, we identified deficiencies in
internal control over financial reporting, described below, that we consider to be significant
deficiencies in internal control over financial reporting.

We considered the following matters to be significant deficiencies:

1. The MRF has partially effective controls over Benefit Payments. The Fund’s payment of
   entitlements is highly automated and the control activities over the Benefit Payments cycle
   are primarily information technology (IT) application controls. Review of 45 High-3 method


      28   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report________________________________________

  retiree payment accounts determined that six retirees were incorrectly paid every month.
  Specifically, the calculated base pay using the High-3 years’ of pay reflected on the Form 99
  generated from the Defense Joint Military Pay System (DJMS) does not agree with the
  amount reflected in the Retiree and Casualty Pay Subsystem (RCPS). These errors were due
  to miscalculations by either the Service or the Defense Finance and Accounting Service –
  Cleveland (DFAS-CL).

  The controls in place to validate retiree information, provided by the Services, and proper
  retirement benefit calculations were not effective. In this sample, the net effect of these
  errors is an overall underpayment of $28 per month. The evaluation of the sample did not
  identify the need for an adjustment to the financial statements.

  We noted that DFAS-CL has developed some compensating controls to help maintain data
  integrity and proper payments. These controls appear to be partially effective. Specifically,
  the data matching with the military pay system, Social Security Administration, and Veterans
  Affairs data appear to be effective in verifying retired status and ensuring retirement benefits
  are not paid to deceased members. Also, DFAS-CL developed and implemented a HI-36
  Calculator Tool to validate new account payment amounts specifically for the High-3
  payment method.

  Management stated that “in 2010, DFAS-CL built a HI-36 calculator that made it much
  easier for New Accounts Operations to calculate the High-3 Base Amount for manual cases.
  This calculator was tested and proved to work for many types of exception cases. It
  improved efficiency and accuracy of the High-3 calculation for manual cases. We also began
  work to build the batch version of the High-3 calculator. Testing continued through May and
  it was implemented in June 2011. In each month since June, DFAS-CL runs the High-3
  Batch Calculator for all the High-3 accounts for the month. The tool extracts the High-3
  Base Amount from the Retired & Annuitant Pay System and compares it to the results of the
  calculation. Differences are corrected manually. DFAS-CL has determined they will use this
  tool prospectively and not attempt to validate historical accounts that were established prior
  to its implementation.”

  In addition, the following actions have been taken:

         A systems fix was proposed in a White Paper, which was approved in July 2011. The
          existing requirements for the automated High-3 routine were modified to include
          edits and reject conditions to ensure that accounts with bad data were rejected and
          sent to New Accounts for manual correction.
         Requirements have been written and reviewed; coding and unit testing is underway.
          The intention is to implement the system fix in the January 2012 release.

  We recommend that the DFAS-CL Retired and Annuity Pay Division correct the retiree
  accounts for the noted errors to reflect the proper amounts due. Also, we recommend they
  develop and implement a plan to validate the initial High-3 calculation for all members
  receiving benefit payments of this calculation method.




    29   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Independent Auditors’ Report________________________________________

2. Review of Defense Retiree Annuitant Pay System (DRAS) System Authorization Access
   Request (SAAR) Forms identified an internal control weakness in regard to the maintenance
   of and proper authorization of SAAR Forms. Specifically, review of 50 SAAR Forms
   identified three discrepancies (6%). DFAS-CL was unable to provide SAAR Forms for three
   users, as these user accounts were overlooked and the SAAR Forms were misplaced.
   Without a SAAR Form it is possible users may be provided access that they do not require to
   complete their job functions, and/or they may have access that is inconsistent or incompatible
   with their positions.

   Defense Finance and Accounting Service – Cleveland (DFAS-CL) reported the three users
   no longer required access to the system. Therefore, we recommended the user accounts be
   disabled or deleted and provide supporting documentation to Acuity once corrective action
   had been taken. Acuity confirmed that DFAS-CL Retired and Annuity Pay deleted the three
   user accounts during audit and, accordingly, no further corrective action is required to correct
   these specific exceptions.

   While the error rate related to this year’s audit is relatively low, this internal control
   weakness has been identified each year since Fiscal Year (FY) 2008 with little evidence of
   improvement in internal controls. Accordingly, we recommend DFAS-CL Retired and
   Annuity Pay:

       a. Continue storing all DRAS SAAR Forms in a central repository.
       b. Conduct a quarterly review of DRAS SAAR Forms to ensure appropriate access
          rights are granted to users and SAAR Forms are properly completed with valid
          signatures and dates.

3. While the Office of the Under Secretary of Defense (Comptroller) (OUSD(C) has oversight
   of the MRF’s financial reporting processes, the Fund does not have a specified Chief
   Financial Officer (CFO). Responsibility for management of the MRF is shared among the
   following three organizations: the Defense Finance and Accounting Service, the Office of
   the Actuary, and the OUSD(C). This creates a potential weakness, as no specific function or
   office has total ownership of the Fund. This has been a persistent condition and reported to
   Fund management since FY 2008. Management has not yet assigned and appointed overall
   responsibility to a single entity for the MRF. To consolidate responsibility for an agency’s
   financial management, the CFO Act requires that “an agency Chief Financial Officer shall
   oversee all financial management activities relating to the programs and operations of the
   agency.” This creates a potential weakness, as no specific function or office has total
   ownership of the Fund.

   Management stated OUSD(C) assumes financial management responsibilities for the Fund
   while Personnel and Readiness (P&R) performs operational functions of the Fund within
   P&R’s purview. These roles and responsibilities will be outlined in a charter establishing a
   governance board charged with overseeing the Fund, which is currently in draft.

   Acuity recommends MRF management appoint a responsible party to be assigned overall
   responsibility for the Fund.



      30   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Principal Statements_________________________________________________




                                    Principal Statements




    32   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Principal Statements_________________________________________________

Consolidated Balance Sheet
                                            Department of Defense
                                          Military Retirement Fund
                                    CONSOLIDATED BALANCE SHEETS
                                      As of September 30, 2011 and 2010


 ($ In Thousands)                                                            2011                  2010
 ASSETS
     Intragovernmental:
        Fund Balance with Treasury (Note 3)                        $          370,337       $         25,383
        Investments (Note 4)                                              371,616,281            321,686,840
        Accounts Receivable (Note 5)                                          186,057                      0
        Total Intragovernmental Assets                             $      372,172,675       $    321,712,223

   Accounts Receivable, Net (Note 5)                                           47,418                 37,043
 TOTAL ASSETS                                                      $      372,220,093       $    321,749,266

 LIABILITIES
   Intragovernmental:
       Other Liabilities (Note 7)                                                   1,680              1,819
       Total Intragovernmental Liabilities                         $                1,680   $          1,819

  Military Retirement Benefit Liabilities (Notes 6
  & 9)                                                                  1,361,267,842           1,262,672,927
  Other Liabilities (Note 7)                                                      180                     181
 TOTAL LIABILITIES                                                 $    1,361,269,702       $   1,262,674,927

 NET POSITION
  Cumulative Results of Operations -
  Earmarked Funds                                                        (989,049,609)          (940,925,661)
 TOTAL NET POSITION                                                $     (989,049,609) $        (940,925,661)

 TOTAL LIABILITIES AND NET POSITION                                $      372,220,093       $    321,749,266


The accompanying notes are an integral part of these statements.




      33   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Principal Statements_________________________________________________

Consolidated Statements of Net Cost

                                         Department of Defense
                                       Military Retirement Fund
                            CONSOLIDATED STATEMENTS OF NET COST
                            For the Years Ended September 30, 2011 and 2010


 ($ In Thousands)                                                              2011              2010
 Program Costs
     Gross Costs (Note 10)                                           $      50,986,816    $    51,091,079
     (Less: Earned Revenue) (Note 10)                                     (105,322,384)       (93,929,724)
     Net Cost before Losses/(Gains) from Actuarial
        Assumption Changes for Military Retirement
        Benefits                                                           (54,335,568)       (42,838,645)
     Losses/(Gains) from Actuarial Assumption
          Changes for Military Retirement Benefits                        102,459,516         85,006,894
 Net Cost of Operations (Note 14)                                    $     48,123,948     $   42,168,249

The accompanying notes are an integral part of these statements.




     34   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Principal Statements_________________________________________________

Consolidated Statements of Changes in Net Position


                                    Department of Defense
                                  Military Retirement Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the Years Ended September 30, 2011 and 2010

 ($ In Thousands)                                                           2011              2010
 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances               $                                    (940,925,661)   $   (898,757,412)
 Net Cost of Operations                                                  48,123,948          42,168,249
 Net Change                                                             (48,123,948)        (42,168,249)
 Cumulative Results of Operations                                      (989,049,609)       (940,925,661)
 Net Position (Note 12)           $                                    (989,049,609)   $   (940,925,661)


The accompanying notes are an integral part of these statements.




     35   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Principal Statements_________________________________________________

Statements of Budgetary Resources

                                      Department of Defense
                                    Military Retirement Fund
                         STATEMENTS OF BUDGETARY RESOURCES
                         For the Years Ended September 30, 2011 and 2010

 ($ In Thousands)                                                                  2011             2010
 Budgetary Resources (Note 13)
 Unobligated balance, brought forward, October 1                       $                  0   $            0
 Budget authority
    Appropriation                                                           104,852,827            93,678,557
    Subtotal                                                                104,852,827            93,678,557
 Temporarily not available pursuant to Public Law                           (53,855,497)          (42,582,432)
 Total Budgetary Resources                                             $     50,997,330       $    51,096,125

 Status of Budgetary Resources
 Obligations incurred:
    Direct                                                             $      50,997,330      $   51,096,125

 Total status of budgetary resources                                   $      50,997,330      $   51,096,125

 Change in Obligated Balance:
 Obligated balance, net
    Unpaid obligations, brought forward, October 1                             4,209,938            3,698,756
    Total unpaid obligated balance                                             4,209,938            3,698,756
 Obligations incurred net                                                     50,997,330           51,096,125
 Less: Gross outlays                                                         (54,861,931)         (50,584,943)
 Obligated balance, net, end of period
    Unpaid obligations                                                             345,337         4,209,938
 Total, unpaid obligated balance, net, end of period                   $           345,337    $      209,938

 Net Outlays:
   Gross outlays                                                              54,861,931           50,584,943
   Less: Distributed Offsetting receipts                                     (61,404,000)         (58,619,000)
   Net Outlays                                                         $      (6,542,069)     $    (8,034,057)

The accompanying notes are an integral part of these statements.




     36   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

DoD Military Retirement Fund Notes to the Principal Statements

NOTE 1. Significant Accounting Policies

A. Basis of Presentation. These financial statements have been prepared to report the financial
position and results of operations for the Military Retirement Fund (MRF), as required by the
Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the
books and records of MRF in accordance with, to the extent possible, U.S. generally accepted
accounting principles (USGAAP) promulgated by the Federal Accounting Standards Advisory
Board; the Office of Management and Budget Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation. The
accompanying financial statements account for all resources for which MRF is responsible
unless otherwise noted.

B. Mission of the Reporting Entity. The mission of MRF is to accumulate funds to finance, on
an actuarially sound basis, the liabilities of DoD military retirement and survivor benefit
programs. The MRF is a program for the payment of pensions to retired military personnel,
annuities to eligible survivors, and special compensation for certain disabled retirees.

C. Appropriations and Funds. P.L. 98-94, The Defense Authorization Act of 1984, authorized
MRF and provided a permanent, indefinite appropriation. Permanent authority becomes
available based upon standing provisions of law without any further legislative action by the
Congress after transmittal of the budget for each year.

The MRF is a non-revolving trust fund. Trust funds contain receipts and expenditures of funds
held in trust by the Government for use in carrying out specific purposes or programs in
accordance with the terms of the donor, trust agreement, or statute.

The MRF funds are designated as earmarked funds. Earmarked funds are financed by
specifically identified revenues, required by statute to be used for designated activities, benefits,
or purposes, and remain available over time. The MRF is required to separately account for and
report on the receipt, use, and retention of revenues and other financing sources for earmarked
funds.

D. Basis of Accounting. The MRF’s financial management systems meet all full accrual
accounting requirements. The MRF’s accounting systems record transactions based on the U.S.
Standard General Ledger (USSGL). Financial and nonfinancial feeder systems and processes are
updated from legacy systems to collect and report financial information as required by
USGAAP.

The financial statements and supporting trial balances are compiled from the underlying financial
data and trial balances. The underlying data for the MRF is largely derived from budgetary
(obligations, disbursements, and collections) and proprietary transactions (assets and liabilities)
and accruals made for major items such as accounts receivable and pension liabilities.


      37   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________


E. Revenues and Other Financing Sources. Using methods and assumptions approved by the
DoD Board of Actuaries, the DoD Office of the Actuary determines the amount of the
contributions made to MRF. The Military Services make a monthly contribution, which is a
percentage of basic pay, to cover accruing costs for currently active military members. The
MRF also receives a U. S. Treasury warrant at the beginning of each fiscal year (1) to amortize
unfunded liability and (2) to cover accruing costs for concurrent receipts (certain beneficiaries
with combat-related injuries who are receiving payments from the Department of Veterans
Affairs [VA]). In addition, interest is earned on investments. Funds from the contributions that
exceed the amounts required to pay current-year expenses are invested in long-term securities.
These investments and their associated interest revenues will be used to cover future liabilities of
MRF.

F. Recognition of Expenses. For financial reporting purposes, DoD policy requires the
recognition of benefit expenses in the period incurred. The current financial management
systems for MRF collect and record on full accrual accounting basis for liabilities and expenses
of the fund.

G. Accounting for Intragovernmental Activities.             The U.S. Treasury’s Federal
Intragovernmental Transactions Accounting Policy Guide and the Treasury Financial Manual,
Part 2 - Chapter 4700, Agency Reporting Requirements for the Financial Report of the United
States Government, provide guidance for reporting and reconciling intragovernmental balances.
The MRF is able to reconcile balances pertaining to investments in federal securities.

The DoD’s proportionate share of public debt and related expenses of the federal Government is
not included. The federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

H. Funds with the U.S. Treasury. The MRF’s monetary resources are maintained in U.S.
Treasury accounts. The disbursing offices of the Defense Finance and Accounting Service
(DFAS) process MRF’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports that provide information to the U.S. Treasury on
checks issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites submit reports to the U.S. Treasury, by appropriation, on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. The MRF
reconciles monthly with the U.S. Treasury account with no outstanding discrepancies.

The U.S. Treasury allows MRF to be fully invested; therefore FBWT may be zero at various
times during the fiscal year, including the end of a quarter or a fiscal year. Precautions are taken
to prevent abnormal balances at the U.S. Treasury.

I. Accounts Receivable. Accounts receivable from other federal entities or from the public
include accounts receivable, claims receivable, and refunds receivable. Allowances for



      38   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

uncollectible accounts due from the public are based upon an analysis of actual collection
experience by MRF during the previous three years. The DoD does not recognize an allowance
for estimated uncollectible amounts from other federal agencies. Claims against other federal
agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual.

J. Investments in U.S. Treasury Securities. The MRF reports investments in U.S. Treasury
securities at cost, net of amortized premiums or discounts (book value). Premiums or discounts
are amortized over the term of the investment using the effective interest rate method. The
MRF’s intent is to hold investments to maturity unless they are needed to finance claims or
otherwise sustain operations. Consequently, there is no provision for unrealized gains or losses
on these securities.

The MRF invests in nonmarketable, market-based U.S. Treasury securities which are issued to
federal agencies by the U. S. Treasury, Bureau of the Public Debt. These securities mirror
marketable securities traded in the Government securities market, but are not publicly traded.
The MRF receives interest semiannually from the U.S. Treasury on the value of these securities.

K. Contingencies and Other Liabilities. The SFFAS No. 5, Accounting for Liabilities of the
Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities
Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The MRF recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss
amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
MRF reports death payment contingencies that result from DoD’s responsibility to cover retiree
benefits not paid by the VA during the month of death.

L. Net Position. Net position consists of cumulative results of operations. Cumulative results
of operations represent the net of expenses, losses, and financing sources (including
appropriations, revenue, and gains) since inception.

M. Undistributed Disbursements and Collections. Undistributed disbursements and collections
represent the difference between disbursements and collections matched at the transaction level
to a specific obligation, payable, or receivable in the source systems and those reported by the
U.S. Treasury. The MRF has no undistributed disbursements or collections.

N. Military Retirement and Other Federal Employment Benefits. The Department applies
SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and
Valuation Dates”, in selecting the discount rate and valuation date used in estimating actuarial
liabilities. In addition, gains and losses from changes in long-term assumptions used to estimate



      39   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

the actuarial liability are presented separately on the Statement of Net Cost. Refer to Note 9,
Military Retirement Benefit Liabilities, and Note 10, Disclosures Related to the Statements of
Net Cost, for additional information.

O. Estimates. The preparation of financial statements in conformity with accounting principles
generally accepted in the United States of America requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities and changes therein, disclosure
of contingent assets and liabilities, and the actuarial present value of accumulated plan benefits at
the date of the financial statements. Actual results could differ from those estimates.

P. Actuarial Information. The DoD MRF financial statements present the unfunded actuarial
liability determined as of the end of the fiscal year based on population information as of the
beginning of the year and updated using accepted actuarial techniques. The “projected benefit
obligation” method is used as required by SFFAS No. 5, Accounting for Liabilities of the
Federal Government.

NOTE 2. Non-Entity Assets

($ In Thousands)                                                         FY 2011             FY 2010

 Accounts Receivable                                                         1,680               1,819
 Total Non-Entity Assets                                       $             1,680   $           1,819

 Total Entity Assets                                           $     372,218,413     $     321,747,447

 Total Assets                                                  $     372,220,093     $     321,749,266

Nonentity assets are assets for which the MRF maintains stewardship accountability and
responsibility to report but are not available for MRF’s operations.

Nonfederal Assets, Accounts Receivable, represent the amount of interest, penalties, and
administrative charges to be collected by MRF on behalf of the U.S. Treasury. Once collected,
this amount is transferred to the appropriate U.S. Treasury receipt account. This amount is offset
by a corresponding custodial liability for MRF reported in Note 7, Other Liabilities.

NOTE 3. Fund Balance With Treasury (FBWT)

($ In Thousands)                                                        FY 2011             FY 2010

 Fund Balance
   Total Trust Fund Balance                                   $            370,337   $        25,383


 Status of Fund Balance with Treasury
    Unobligated Balance-Unavailable                           $       368,236,009    $    314,380,513
    Obligated Balance not yet Disbursed                                   345,337           4,209,938
    NonFBWT Budgetary Accounts                                       (368,211,009)       (318,565,068)
    Total                                                     $           370,337    $         25,383



      40   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________


($ In Thousands)                                                        FY 2011            FY 2010

 Fund Balance
   Total Trust Fund Balance                                   $            370,337   $        25,383


 Status of Fund Balance with Treasury
    Unobligated Balance-Unavailable                           $       368,236,009    $    314,380,513
    Obligated Balance not yet Disbursed                                   345,337           4,209,938
    NonFBWT Budgetary Accounts                                       (368,211,009)       (318,565,068)
    Total                                                     $           370,337    $         25,383

Fund Balance with Treasury increased $345.0 million due to the difference between the amount
held back for payroll and actual payroll funds disbursed. The 2011 National Defense
Authorization Act (NDAA) requires that when the first day of the month falls on a nonbusiness
day (weekend/holiday), the payroll must be paid the preceding business day. Since
October 1, 2011 fell on a Saturday, the MRF held back a payroll estimate of $4.3 billion on
September 30, 2011; however, funds actually disbursed were $3.9 billion. The MRF holdback at
the end of a quarter is typically $25.0 million when the first day of the month falls on a business
day. See Note 9, Military Retirement Benefit Liabilities, and Disclosures Related To the
Statement of Budgetary Resources, Note 13, for additional information about these changes.

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support
FBWT and is a reconciliation between budgetary and proprietary accounts. It primarily consists
of unobligated and obligated balances. The balances reflect the budgetary authority remaining
for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance, which consists primarily of funds that are temporarily precluded from
obligation by law, is invested in U.S. Treasury securities. The unobligated balance for the MRF
is restricted for use by the public law that established the fund and becomes available without
further congressional action.

Obligated Balance not yet Disbursed represents the amount of earned and accrued pension and
annuity payments. The MRF balance represents benefits payable on October 1, 2011.

The MRF NonFBWT Budgetary Accounts balance represents investments in U.S. Treasury
securities that are reflected in the MRF’s budgetary resources, but are not part of the FBWT.




      41   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 4. Investments

($ In Thousands)                                                     FY 2011


                                                                     Amortized                         Market
                                              Amortization           (Premium)         Investments      Value
                                 Cost           Method                /Discount            Net        Disclosure
Intragovernmental
  Securities
Nonmarketable,                                   Effective
  Market-Based          $    376,420,184          Interest       $     (8,209,175) $    368,211,009 $ 432,741,430
Subtotal                     376,420,184                                                368,211,009   432,741,430
Accrued Interest               3,405,272                                                  3,405,272     3,405,272
Total Investments       $    379,825,456                         $     (8,209,175) $    371,616,281 $ 436,146,702



($ In Thousands)                                                     FY 2010

                                                                     Amortized                         Market
                                              Amortization           (Premium)         Investments      Value
                                 Cost           Method                /Discount            Net        Disclosure
Intragovernmental
  Securities
Nonmarketable,                                   Effective
  Market-Based          $    325,124,664          Interest       $     (6,559,596) $   318,565,068 $ 351,050,659
Subtotal                     325,124,664                               (6,559,596) $   318,565,068   351,050,659
Accrued Interest               3,121,772                                                 3,121,772     3,121,772
Total Investments       $    328,246,436                         $     (6,559,596) $   321,686,840 $ 354,172,431


Total Intragovernmental Securities, Net Investments increased $49.9 billion (16%) primarily due
to the MRF purchase of $43.4 billion in long-term securities. The increase is due to normal
growth in the MRF from contributions from the U.S. Treasury and the Military Services net of
benefits paid. The annual investment of these funds has a cumulative effect with an expectation
that invested balances will continue growing to cover future benefits.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general Government purposes. The U.S. Treasury
securities are issued to the earmarked funds as evidence of its receipts and are an asset to the
MRF and a liability to the U.S. Treasury. Since MRF and the U.S. Treasury are both parts of the
Federal Government, these assets and liabilities offset each other from the standpoint of the
Federal Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.




      42   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

The U.S. Treasury securities provide MRF with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When MRF requires redemption of these
securities to make expenditures, the Government will finance them from accumulated cash
balances, by raising taxes or other receipts, borrowing from the public or repaying less debt, or
curtailing other expenditures. The Federal Government uses the same method to finance all
other expenditures.

The following table displays the cost of the U.S. Treasury Securities.

($ In Thousands)
                                          FY 2011 COST                    FY 2010 COST
                                          ($ in thousands)                ($ in thousands)

 Notes                                       $ 21,467,813                    $ 31,347,154
 Bonds                                         11,944,969                       6,427,250
 TIPS                                         328,755,348                     273,248,935
 Overnights                                    14,252,054                      14,101,325
 Total Cost                                  $376,420,184                    $325,124,664

The MRF purchases and redeems nonmarketable market-based U.S. Treasury securities that
fluctuate in tandem with the current selling price of the equivalent marketable security on the
open market. The MRF purchases securities with the intent to hold until maturity; therefore,
balances are not adjusted to market value.

At the semiannual meetings, the Department of Defense Investment Board approves the strategy
for the type of securities purchased by MRF. These securities can include U.S. Treasury bills,
notes, bonds, inflation-protected securities, and overnight certificates. The U.S. Treasury bills
are short-term securities with maturities of one year or less and are purchased at a discount. The
U.S. Treasury notes have maturities of at least one year, but not more than 10 years, and are
purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities
with maturities of 10 years or more and are purchased at either a discount or premium. The TIPS
provide protection against inflation and are purchased at either a discount or premium. The TIPS
principal increases with inflation and decreases with deflation, as measured by the CPI. When
TIPS mature, the U.S. Treasury pays the adjusted principal or original principal, whichever is
greater. The TIPS amount includes inflation compensation as well as the par value of the
securities. Overnight securities are short-term securities, purchased at face value, that mature the
next business day and earn interest at the daily Federal Reserve repurchase agreement rate.

On August 5, 2011, Standard & Poor’s (S&P), a nationally recognized statistical rating
organization, downgraded the long-term U.S. credit rating to “AA+” (from the highest rating of
“AAA”). Acuity Consulting, Inc. evaluated the impact of the credit rating reduction on
impairment of the Fund’s investment or the requirement to recognize a contingency. Acuity
found the Fund has the intent and ability to retain its investments to allow for any anticipated
recovery in market value, which has not decreased as a result of the credit rating downgrade.
Please refer to the Management Discussion and Analysis, Projected Long-Term Health of the
Fund, for additional information.




      43   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 5. Accounts Receivable

($ In Thousands)                                                                    FY 2011

                                                                         Allowance for
                                               Gross                      Estimated                   Net Amount
                                             Amount Due                  Uncollectible                    Due
Intragovernmental Receivables              $    186,057             $                         $           186,057
With the Public                                  49,603                         (2,185)                    47,418
Total Receivable                           $    235,660             $           (2,185)       $           233,475

($ In Thousands)                                                                    FY 2010

                                                                         Allowance for
                                               Gross                      Estimated                   Net Amount
                                             Amount Due                  Uncollectible                    Due
Intragovernmental Receivables              $          0             $                         $                 0
With the Public                                  38,921                         (1,878)                    37,043
Total Receivable                           $     38,921             $           (1,878)       $            37,043

Intragovernmental Receivables increased by $186.1 million (100%) due to a late receipt of a
Service contribution.   The Marine Corps paid their September 2011 contribution on
October 4, 2011.

Nonfederal Accounts Receivable increased by $10.4 million (28%) due to the Special Separation
Benefit (SSB) recoupment. The recoupment occurs if the member returns to service and
subsequently retires. The SSB recoupment had been put on hold for approximately one and a
half years; however, during 3rd Quarter, FY 2011, the hold was removed. The SSB recoupment
is a receivable that does not incur interest, administrative fees, penalties, and fines.

The accounts receivable represent the Military Retirement Fund’s (MRF) claim for payment
from military retirees or their survivors for erroneous amounts previously paid. The MRF only
recognizes an allowance for uncollectible amounts from the public. Claims with other federal
agencies are resolved in accordance with the Intragovernmental Business Rules.

NOTE 6. Liabilities Not Covered By Budgetary Resources

($ In Thousands)
                                                                        FY 2011                         FY 2010
Nonfederal Liabilities
Military Retirement Benefits Liability (Note 9)                 $      992,686,495                $      944,082,476
Other Liabilities                                                              180                               181
Total Nonfederal Liabilities                                    $      992,686,675                $      944,082,657
Total Liabilities Not Covered by Budgetary Resources            $      992,686,675                $      944,082,657
Total Liabilities Covered by Budgetary Resources                $      368,583,027                $      318,592,270
Total Liabilities                                               $    1,361,269,702                $    1,262,674,927




      44   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

Total Liabilities Not Covered by Budgetary Resources increased $48.6 billion (5%). The
increase is primarily attributable to the increase in the actuarial liability of $98.6 billion (see
discussion in Military Retirement Benefits and Other Federal Employment Benefits, below)
offset by an increase of $43.4 billion in investments available to pay benefits (explained above).
See Note 4, Investments, and Note 9, Military Retirement Benefit Liabilities, for additional
information about these changes.

The Military Retirement Fund Liabilities Not Covered by Budgetary Resources amount
represents actuarial liabilities for pension benefits for which assets are not yet available. Refer to
Note 9, Military Retirement Benefit Liabilities, for additional details and disclosures.
Nonfederal Other Liabilities represent contingent liabilities payable by the Department of
Defense for estimated death payments. These liabilities cover the retiree benefits not paid by the
Department of Veterans Affairs during the month of death. This amount is also reported on
Note 7, Other Liabilities.

NOTE 7. Other Liabilities

($ In Thousands)                                                       FY 2011          FY 2010

Intragovernmental
Custodial Liabilities                                           $          1,680    $      1,819
Total Intragovernmental Other Liabilities                       $          1,680    $      1,819

Nonfederal
Contingent Liabilities                                                       180             181
Total Nonfederal Other Liabilities                              $            180    $        181

Total Other Liabilities                                         $          1,860    $      2,000

Intragovernmental Custodial Liabilities are comprised of interest, penalties, and administrative
charges to be collected on behalf of the U.S. Treasury. This amount is also reported as a
nonfederal accounts receivable on Note 2, Non-entity Assets.

Nonfederal Other Liabilities represent contingent liabilities payable by DoD for estimated death
payments. These liabilities cover the retiree benefits not paid by the VA during the month of
death. This amount is also reported on Note 6, Liabilities Not Covered by Budgetary Resources,
and on Note 8, Commitments and Contingencies.

NOTE 8. Commitments and Contingencies

Currently there are no known contingent liabilities pending legal action.

The MRF has an estimated contingent liability of $180 thousand that is measurable and probable
and, therefore, has been recorded in the accounting records. These liabilities cover the retiree
benefits not paid by the VA during the month of death. This amount is also reported on Note 7,
Other Liabilities.



      45   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 9. Military Retirement Benefit Liabilities

($ In Thousands)                                                       FY 2011

                                                       Assumed                 (Less: Assets
  Major Program                 Present Value        Interest Rate            Available to Pay          Unfunded
      Activities                 of Benefits              (%)                    Benefits               Liabilities
Military Retirement
 Pension Actuarial
 Liability                  $    1,360,922,505             4.8%          $          (368,236,009)   $   992,686,496
 Other                                 345,337                                          (345,337)                 0
 Total:                     $    1,361,267,842                           $          (368,581,346)   $   992,686,496

($ In Thousands)                                                       FY 2010

                                                       Assumed                 (Less: Assets
  Major Program                 Present Value        Interest Rate            Available to Pay          Unfunded
      Activities                 of Benefits              (%)                    Benefits               Liabilities
Military Retirement
 Pension Actuarial
 Liability                  $    1,258,462,989             5.0%          $          (314,380,513)   $   944,082,476
 Other                               4,209,938                                        (4,209,938)                 0
 Total:                     $    1,262,672,927                           $          (318,590,451)   $   944,082,476

The present value of the Military and Retirement and Other Federal Employment Benefits
liability increased $98.6 billion (8%). An increase of $62.0 billion is primarily due to the lower
interest rate and associated changes in the long-term salary increase and inflation assumptions
related to requirements prescribed by SFFAS No. 33, updated retiree offset factors, mortality
improvement factors, and undoing entitlement-year-based benefit payments. In addition, an
increase of $40.4 billion is for normal cost and interest costs, offset by benefit payments. These
increases are offset by a decrease in pension benefits due and payable of $3.9 billion resulting
from the changes in the 2011 National Defense Authorization Act, requiring payment on
September 30, 2011 instead of the first business day of October 2011. See Note 3, Fund Balance
with Treasury, and Disclosures Related to the Statement of Budgetary Resources, Note 13, for
additional information about these changes.

Information Related to Military Retirement and Other Federal Employment Benefits

The MRF accumulates funds used to pay pensions to retired military personnel and annuities to
their survivors. The Military Retirement System is a single-employer, defined benefit plan.
The schedules above reflect two distinct types of liabilities related to Military Retirement and
Other Federal Employment Benefits. The line entitled “Military Retirement Pensions”
represents the actuarial liability for future pension benefits not yet paid. The line entitled
“Other” represents retirement benefits due and payable on the first day of the next reporting
period.




      46   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

Effective FY 2010, MRF implemented requirements of SFFAS No. 33 which directs the interest
rate, underlying inflation rates, and other economic assumptions should be consistent with one
another. A change in the interest rate may cause other assumptions to change as well. For the
September 30, 2011, financial statement valuation, the implementation of the SFFAS equivalent
rate required DoD OACT to change the long-term inflation and salary increase assumptions to be
consistent with the underlying Treasury spot rates used in the valuation.

The MRF actuarial liability is adjusted at the end of each fiscal year. The 4th Quarter, FY 2011,
balance represents the September 30, 2011, amount.

Actuarial Cost Method
As dictated by law, the MRF is funded using the Aggregate Entry-Age Normal Cost method.
This is a method whereby projected retirement costs are spread over the projected future salaries
of a new-entrant cohort.

Projected Revenues
The MRF receives projected revenues from three sources: interest earnings on MRF assets,
monthly contributions from the Military Services, and an annual contribution from the U.S.
Treasury. The contribution from the U.S. Treasury is applied to MRF at the beginning of each
fiscal year and represents the amortization of the unfunded liability for service performed before
October 1, 1984, as well as the amortization of subsequent actuarial gains and losses. Starting
October 1, 2004, P.L. 108-136 requires a contribution for the normal cost amount for the
concurrent receipt provisions under Sections 1413a and 1414 in addition to the unfunded liability
amortization payment. The DoD Board of Actuaries (the Board) approves methods and
assumptions used to determine the amount for the U.S. Treasury warrant, and the Secretary of
Defense directs the Secretary of Treasury to make the payment.

Assumptions
The Board sets the long-term economic assumptions for each valuation performed for funding
purposes. Prior to FY 2010, the same long-term assumptions were used for the financial
statement valuations. The distinction between the two different valuations is discussed further
below. The long-term assumptions for the FY 2010 financial statement valuation were 5.0%
interest, 2.4% Consumer Price Index, and 3.6% salary increase. For the FY 2010 funding
valuation, the long-term assumptions were 5.75% interest, 3.0% Consumer Price Index, and
3.75% salary increase. For the FY 2011 financial statement valuation, the long-term
assumptions were 4.8% interest, 2.5% Consumer Price Index, and 3.3% salary increase. For the
FY 2011 funding valuation, the long-term assumptions did not change. (The term “interest”
refers to the interest rate used to discount cash flows. The terms “interest rate” and “discount
rate” can be used interchangeably.) The difference in the long-term assumptions between and
among valuations is attributable to the SFFAS No. 33. The standard is discussed further below.
Other assumptions used to calculate the actuarial liabilities, such as mortality and retirement
rates, were based on actual experience. Because of reporting deadlines, the current year actuarial
present value of projected plan benefits is rolled forward from the prior year valuation results as
reported in the OACT report “Valuation of the Military Retirement System” using accepted
actuarial methods. Adjustments are made as necessary to put liabilities on a financial statement



      47   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

basis. In the selection of the valuation date, SFFAS No. 33 allows for actuarial liabilities to be
rolled forward from the prior year valuation results. The effects of changes during the year in
major factors such as pay raises and cost of living adjustments have been incorporated in the roll-
forward adjustment. In calculating the FY 2011 roll-forward amount, the following assumptions
were used:
                       Inflation             Salary             Interest

Fiscal Year 2011          0.0 % (actual)             1.4 % (actual)            4.8 %
Fiscal Year 2012          2.8 % (estimated)          1.6% (estimated)          4.8 %
Long-Term                 2.5%                       3.3 %                     4.8 %

For purposes of the MRF’s financial reporting, this roll-forward process is applied annually.
Contributions to MRF are calculated so as to maintain the Fund on an actuarially sound basis.
This means that there will be sufficient funds to make all benefit payments to eligible recipients
each year and that the asset balance is projected to eventually equal the actuarial liability; i.e., all
unfunded liabilities are liquidated. In order to accomplish this objective, normal costs are
calculated to fully fund the current year projected liability for active duty members and
reservists. In addition, amortization payments are calculated to fund liabilities that were present
at plan inception (initial unfunded liability) and any emerging actuarial gains or losses.

The initial unfunded liability of the program was amortized over a 50-year period through the
FY 2007 payment. At its August 2007 meeting, the Board decided to decrease the period over
which the initial unfunded liability is fully amortized by 8 years. Their decision was made to
ensure that, at a minimum, the amortization payment covered the interest on the unfunded
actuarial liability. Therefore, starting with the FY 2008 payment, the initial unfunded liability is
being amortized over a 42-year period, with the last payment expected to be made October 1,
2025. All subsequent gains and losses experienced by the system are amortized over a 30-year
period. Chapter 74 of Title 10, United States Code (USC), requires the Board to approve the
methods and assumptions used to (1) compute actuarial costs and liabilities, (2) amortize the
initial unfunded liability, and (3) amortize all actuarial gains and losses. The Board is a Federal
Advisory Committee appointed by the Secretary of Defense.

The SFFAS No. 33, as published on October 14, 2008, by the Federal Accounting Standards
Advisory Board (FASAB), requires the use of a yield curve based on marketable U. S. Treasury
securities to determine the interest rates used to calculate actuarial liabilities for federal financial
statements. Historical experience is the basis for expectations about future trends in marketable
U. S. Treasury securities.

The statement is effective for periods beginning after September 30, 2009, and applies to
information provided in general purpose federal financial statements. It does not affect statutory
or other special-purpose reports, such as pension or Other Retirement Benefit reports. It requires
a minimum of five periodic rates for the yield curve input and a consistency in the number of
historical rates used from period to period. It permits the use of a single average interest rate if
the resulting present value is not materially different from what would be obtained using the
yield curve.




      48   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

OACT annually performs two MRF valuations. The primary one is for funding purposes—this
valuation is governed by Chapter 74 of Title 10 U.S.C. and must use methods and assumptions
approved by the Board. The other is for financial statement purposes and is governed by
FASAB standards. For the September 30, 2011, financial statement valuation, OACT used
quarterly zero coupon Treasury spot rates (as published by the Office of Thrift Supervision) from
June 30, 2001, to March 31, 2011, (40 quarterly interest rates) to determine an SFFAS equivalent
interest rate of 4.8%. In the summer of 2011, the Board approved an interest rate of 5.75% for
the September 30, 2011, funding valuation, which differs from the SFFAS equivalent rate by 95
basis points. Using the SFFAS No. 33 long-term economic assumptions increases the MRF
actuarial liability by 7%.

Military Services Contributions

The contributions from the Military Services are the product of basic pay and normal cost
percentages (NCPs) determined in accordance with the methods and assumptions approved by
the Board. Basic pay generally increases each year, and on January 1, 2011, there was a 1.4%
across-the-board basic pay increase. The NCPs for FY 2011 were set by the Board in their
August 2009 Board Letter: 32.7% (full-time) and 24.4% (part-time). The NCPs for FY 2012
were set by the Board in their July 2010 Board Letter: 34.3% (full-time) and 24.3% (part-time).
The above NCPs are based on the Board’s funding valuation, not the financial statement
valuation (SFFAS No. 33), and are calculated without regard to the concurrent receipt provisions
of Sections 1413a and 1414 of Title 10.

Market Value of Investments

The market value of MRF’s nonmarketable market-based securities as of September 30, 2011,
totaled $436.1 billion as reflected in Note 4, Investments and Related Interest.

NOTE 10. Disclosures Related to the Statements of Net Cost

($ In Thousands)                                                       FY 2011           FY 2010

 Public Costs                                                   $     153,446,332    $   136,097,973
 Total Costs                                                    $     153,446,332    $   136,097,973
 Intragovernmental Earned Revenue                                    (105,322,384)       (93,929,724)
 Total Earned Revenue                                           $    (105,322,384)   $   (93,929,724)
 Net Cost of Operations                                         $      48,123,948    $    42,168,249

Net Cost of Operations increased $6.0 billion (14%) primarily due to an increase in the change of
the actuarial liability for Military Retirement Benefits in the amount of $17.5 billion. Factors
impacting the change are discussed in Note 17, Military Retirement Benefits and Other Federal
Employment Benefits. This is offset by an increase in earned revenue due to increases in interest
earnings of $7.6 billion, the annual Treasury contribution of $2.8 billion, and the employing
agency (Military Services) contributions of $1.0 billion. The increase in the Military Services’
contributions is the result of the change in the Normal Cost Percentages, which are updated two
years in advance.



      49   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________


The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government that are supported by appropriations or other means. The intent of the SNC
is to provide gross and net cost information related to the amount of output or outcome for a
given program or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue represent transactions made between two reporting entities
within the Federal Government. Public costs and revenues are exchange transactions made
between the reporting entity and a nonfederal entity. Intragovernmental earned revenue is
comprised primarily of the following:

Intragovernmental Earned Revenues for Program Costs

 ($ in Thousands)                                                                    FY 2011           FY 2010

 1. Military Service Contributions as a Percentage of Base Pay                 $     20,970,253   $   20,376,688
 2. Annual Treasury Unfunded Liability Payment                                       61,404,000       58,619,000
 3. Annual Treasury Normal Cost Payment                                               4,950,000        4,516,000
 4. Interest on Investments                                                          17,998,131       10,418,036
 Total                                                                         $    105,322,384   $   93.929.724


NOTE 11. Benefit Program Expense

Benefit Expenses

 ($ in Thousands)                                                                   FY 2011            FY 2010

 1. Service Cost                                                           $         28,780,469   $    23,932,659
 2. Period Interest on the Benefit Liability                                         62,587,412        66,965,791
 3. Prior (or Past) Service Cost                                                              0                 0
 4. Period Actuarial (Gains) or Losses                                               62,104,063        44,525,019
 Total                                                                     $        153,471,944   $   135,423,469

The benefit program expense provides components of the change in the actuarial liability from
September 30, 2010, to September 30, 2011. The September 30, 2011, actuarial liability is
calculated using the components of benefit program expense as well as the expected benefit
payments during FY 2011. The September 30, 2011, actuarial liability is equal to the September
30, 2010, liability plus the total benefit program expense minus the expected benefit payments.
For FYs 2010 and 2011, there was no Prior Service Cost (Line 3). The FY 2011 Period
Actuarial (Gains) or Losses (Line 4) is positively impacted by a change in long-term economic
assumptions due to SFFAS No. 33, and positively impacted by a higher than expected cost of
living adjustment anticipated in January 2012, and negatively impacted by a lower than expected
across-the-board pay table increase, whereas in FY 2010 it was largely impacted by a lower cost
of living adjustment in January 2011. In FY 2011 there also is a positive impact due to
eliminating the entitlement-year-based benefit payments adjustment.




      50   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 12. Disclosures Related to the Statements of Changes in Net Position

There was a difference of $104.9 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations on the Statement of Budgetary Resources
(SBR). The MRF records contributions as revenue on the SCNP, while contributions are
recorded as Appropriations on the SBR. This is in accordance with Office of Management and
Budget reporting requirements. Refer to Note 13, Disclosures Related to the Statement of
Budgetary Resources for further information.

NOTE 13. Disclosures Related to the Statements of Budgetary Resources

Net Outlays increased $1.5 billion (19%) due to an increase in gross outlays of $4.2 billion
primarily as a result of disbursing $3.9 billion in payroll on September 30, 2011 instead of
October 3, 2011. This is offset by a $2.8 billion increase in the U.S. Treasury contribution for
the amortization of the unfunded liability based on the unfunded liability amortization schedule
established by the DoD Board of Actuaries. See Note 3, Fund Balance with Treasury, and Note
9, Military Retirement Benefit Liabilities, for additional information regarding the payroll date
change.

The MRF reported $51.0 billion of direct obligations that are exempt from apportionment.
The SBR includes intra-entity transactions because the statements are presented as combined.
P.L. 98-94, The Defense Authorization Act of 1984, authorized MRF and provided a permanent,
indefinite appropriation.

The MRF’s unobligated balances of budget authority represent the portion of trust fund receipts
collected in the current fiscal year that exceeds (1) the amount needed to pay benefits or other
valid obligations and (2) the receipts temporarily precluded from obligation by law. The
receipts, however, are assets of MRF and are available for obligation as needed in the future.

There was a difference of $104.9 billion between Appropriations Received on the Statement of
Changes in Net Position (SCNP) and Appropriations on the SBR. The MRF records
contributions as revenue on the SCNP, while contributions are recorded as Appropriations on the
SBR. This is in accordance with Office of Management and Budget reporting requirements.




      51   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 14. Reconciliation of Net Cost of Operations to Budget

($ In Thousands)                                                             FY 2011           FY 2010

 Resources Used to Finance Activities:
    Budgetary Resources Obligated:
    Obligations incurred                                             $       50,997,330    $    51,096,125
    Less: Offsetting receipts (-)                                           (61,404,000)       (58,619,000)
    Net obligations                                                  $      (10,406,670)   $    (7,522,875)
    Resources that fund expenses recognized in prior period                          (1)                (5)
 Total resources used to finance the Net Cost of Operations          $      (10,406,671)   $    (7,522,880)
 Components of the Net Cost of Operations that will not
      Require or Generate Resources in the Current Period:
      Components Requiring or Generating Resources in                       102,459,516        85,006,894
      Future Period – Other
 Components not Requiring or Generating Resources:                   $      102,459,516    $   85,006,894
      Other (+/-)
      Trust Fund Exchange Revenue                                           (43,918,384)       (35,310,724)
      Other                                                                     (10,513)            (5,041)
      Total Components of Net Cost of Operations that will                  (43,928,897)       (35,315,765)
      not Require or Generate Resources
 Total components of Net Cost of Operations that will not            $       58,530,619    $   49,691,129
      Require or Generate Resources in the current period
 Net Cost of Operations                                              $       48,123,948    $   42,168,249

The following note schedule lines are presented as combined instead of consolidated due to
intraagency budgetary transactions not being eliminated: Obligations Incurred; Obligations Net
of Offsetting Collections and Recoveries; Less: Offsetting Receipts; and Net Obligations.

Components not Requiring or Generating Resources – Other displays the change in accounts
receivable since the beginning of both FY 2011 and FY 2010. These amounts represent refunds
receivable and changes in bad debt for erroneous payments to military retirees or their survivors.




      52   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
 Notes to the Principal Statements______________________________________

 NOTE 15. Earmarked Funds

                                                                                        2011               2010
BALANCE SHEET
ASSETS
Fund balance with Treasury                                                     $     370,337        $        25,383
Investments                                                                      371,616,281            321,686,840
Accounts and Interest Receivable                                                     233,475                 37,043
Total Assets                                                                   $ 372,220,093        $   321,749,266
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal Employment
Benefits                                                                       $ 1,361,267,842      $ 1,262,672,927
Other Liabilities                                                                        1,860                2,000
Total Liabilities                                                              $ 1,361,269,702      $ 1,262,674,927

Cumulative Results of Operations                                                 (989,049,609)          (940,925,661)
Total Liabilities and Net Position                                             $ 372,220,093        $    321,749,266

STATEMENT OF NET COST
Program Costs                                                                  $ 153,446,332        $   136,097,973
Less Earned Revenue                                                              (105,322,384)          (93,929,724)
Net Program Costs                                                              $ 48,123,948         $    42,168,249
Net Cost of Operations                                                         $ 48,123,948         $    42,168,249

STATEMENT OF CHANGES IN NET POSITION
Net Position Beginning of the Period                                           $ (940,925,661)      $   (898,757,412)
Net Cost of Operations                                                               48,123,948          42,168,249
Change in Net Position                                                         $     (48,123,948)   $    (42,168,249)
Net Position End of the Period                                                 $ (989,049,609)      $   (940,925,661)

 P. L. 98-94, The Defense Authorization Act of 1984, established the MRF as a pension program
 for the payment of pensions to retired military personnel, annuities to eligible survivors, and
 special compensation for certain disabled retirees. The MRF accumulates funds to finance, on an
 actuarially sound basis, liabilities of the DoD retirement program. The MRF receives its funding
 as an earmarked trust fund and uses these resources to execute its mission.

 The primary financing sources for MRF are (1) monthly Military Service contributions as a
 percentage of base pay; (2) an annual warrant from the U.S. Treasury for the unfunded liability
 and for the concurrent receipt provisions for certain disabled retirees; and (3) interest earned on
 investments. Using methods and assumptions approved by the DoD Board of Actuaries, the
 DoD Office of the Actuary calculates the annual payment amounts and percentages. The
 financing sources are the result of intragovernmental flows. Contributions in excess of the
 projected current year retiree and annuitant benefits are invested. The investments and
 associated interest revenue are used to cover future liabilities of MRF.



       53   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
Notes to the Principal Statements______________________________________

NOTE 16. Other Disclosures

FY 2011 Change in the MRF Actuarial Liability

The net pension expense for the change in the actuarial accrued liability from September 30,
2010 to September 30, 2011 is developed in the following table.

Table 1: Change in Actuarial Liability

 ($ In Thousands)                                       FY 2011                            FY 2010
 Beginning Actuarial Liability           $           1,258,462,989                  $   1,173,456,095
 Normal Cost Liability                                  28,780,469                         23,932,659
 Plan Amendment Liability                                        0                                  0
 Assumption Change Liability                            61,970,175                         66,642,583
 Benefit Outlays                                       (51,012,426)                       (50,416,577)
 Interest Cost                                          62,587,412                         66,965,791
 Actuarial (gains)/losses due to changes
 in experience                                              133,886                       (22,117,562)
 Ending Actuarial Liability                   $      1,360,922,505                  $   1,258,462,989
 Change in Actuarial Liability                $        102,459,516                  $     85,006,894

The September 30, 2011, accrued liability includes changes due to assumptions and experience.
The new assumptions include updated retiree offset factors, mortality improvement factors,
undoing entitlement-year-based benefit payments, and a lower single equivalent interest rate
under SFFAS No. 33 of 4.8%. The net effect of these new assumptions is an increase in the
September 30, 2011, accrued liability of $62.0 billion, shown on Line D ($53.1 billion of this
increase is due to the lower SFFAS No. 33 interest rate and associated changes in the long-term
salary increase and inflation assumptions, -$6.3 billion is due to the updated retiree offset factors,
$10.9 billion is due to the new mortality improvement factors, and $4.3 billion is due to undoing
entitlement-year-based benefit payments). The change in the accrued liability due to the net
experience loss of $133.9 million, shown on line G, reflects the new population on which the
September 30, 2011, roll-forward is based, as well as other economic experience being different
from that assumed (-$5.6 billion due to a lower than expected cost of living adjustment and
across-the-board salary increase for January 2012, which was offset by $5.7 billion from new
population data).

NOTE 17. Subsequent Event

No material events or transactions have occurred subsequent to September 30, 2011, through
November 4, 2011, the date when the financial statements were available to be issued, that have
not been properly recorded in the financial statements or disclosed in the notes. Also, there have
been no changes to internal control subsequent to September 30, 2011, or other factors that might
significantly affect the effectiveness of internal control.




      54   Fiscal Year 2011 Military Retirement Fund Audited Financial Statements
